<html>
<title> - INTERNATIONAL FOOD ASSISTANCE</title>
<body><pre>[Senate Hearing 110-159]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-159
 
                     INTERNATIONAL FOOD ASSISTANCE

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                     MARCH 15, 2007--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html




                    U.S. GOVERNMENT PRINTING OFFICE
35-482                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                               __________

                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee

                  Terrence E. Sauvain, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

     Subcommittee on Agriculture, Rural Development, Food and Drug 
                  Administration and Related Agencies

                     HERB KOHL, Wisconsin, Chairman
TOM HARKIN, Iowa                     ROBERT F. BENNETT, Utah
BYRON L. DORGAN, North Dakota        THAD COCHRAN, Mississippi
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RICHARD J. DURBIN, Illinois          CHRISTOPHER S. BOND, Missouri
TIM JOHNSON, South Dakota            MITCH McCONNELL, Kentucky
BEN NELSON, Nebraska                 LARRY CRAIG, Idaho
JACK REED, Rhode Island              SAM BROWNBACK, Kansas

                           Professional Staff

                             Galen Fountain
                        Jessica Arden Frederick
                             Dianne Preece
                      Fitzhugh Elder IV (Minority)
                       Stacey McBride (Minority)
                        Graham Harper (Minority)
                         Brad Fuller (Minority)

                         Administrative Support

                             Renan Snowden


                            C O N T E N T S

                              ----------                              
                                                                   Page

Statement of Senator Herb Kohl...................................     1
Statement of Senator Robert F. Bennett...........................     2
Statement of Senator Richard J. Durbin...........................     3
Statement of James T. Morris, Executive Director, World Food 
  Programme......................................................     4
    Prepared Statement of........................................     7
Statement of Abass Mohamed, Former Food Aid Recipient From 
  Somalia........................................................    13
    Prepared Statement of........................................    15
Statement of Daniel Kuot, Former Food Aid Recipient From Sudan...    16
Statement of Walter Middleton, Vice President, World Vision 
  International..................................................    22
    Prepared Statement of........................................    24
Statement of Cynthia A. Brown, on Behalf of the U.S. Dry Bean 
  Council........................................................    30
    Prepared Statement of........................................    31
    Letter From..................................................    35
Position Paper of the United States Dry Bean Council.............    36
Food Aid Program.................................................    36
Statement of Mark E. Keenum, Under Secretary for Farm and Foreign 
  Agricultural Services, Department of Agriculture...............    41
Current Food Aid Programs........................................    42
Food for Progress Program........................................    42
McGovern-Dole Program............................................    42
Public Law 480 Title I Program...................................    43
Bill Emerson Humanitarian Trust..................................    43
Upcoming Issues..................................................    43
Prepared Statement of Mark E. Keenum.............................    45
Statement of James Kunder, Deputy Administrator, United States 
  Agency for International Development...........................    47
    Prepared Statement of........................................    49
Prepared Statement of the American Dietetic Association..........    57


                     INTERNATIONAL FOOD ASSISTANCE

                              ----------                              


                        THURSDAY, MARCH 15, 2007

        U.S. Senate, Subcommittee on Agriculture, Rural 
            Development, Food and Drug Administration, and 
            Related Agencies, Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Herb Kohl (chairman) presiding.
    Present: Senators Kohl, Durbin, Bennett, and Cochran.


                     statement of senator herb kohl


    Senator Kohl. This hearing will come to order.
    The World Health Organization reports that 25,000 people 
die each and every day from hunger related causes. That's an 
enormous number.
    The World Health Organization further reports that of that 
25,000 people who die, 18,000 are children. That means that in 
less than the time that it took me to say that last sentence; a 
child somewhere in the world has died of hunger. It also means 
that before I finish this sentence another will have died.
    According to the World Food Programme, 850 million people 
are hungry or malnourished around the world on any given day. 
This is one in six of the world's population, which is more 
than the combined populations of the United States, Russia, 
Japan, Germany, Britain and France.
    The subcommittee has many important responsibilities but of 
all the programs we fund there are none that literally mean the 
difference between life and death on a daily basis as much as 
the programs related to humanitarian food assistance.
    Of the three major U.S. programs for international food 
assistance, Food for Progress Program, McGovern-Dole Program 
and the flagship Food for Peace Program, the last two are 
directly supported by discretionary spending on the Agriculture 
Appropriations Bill.
    At this time the Congress is considering a supplemental 
request of $350 million for the Food for Peace Program. This is 
important but we should not have to rely on supplemental 
spending. We should fund these programs through the annual 
budget process where long term planning is more effective. 
Still the President's request shows the urgency that we all 
share in fighting food hunger.
    Last fall, Senator Bennett and I sent our staffs on a 
mission to sub-Sahara Africa to investigate first hand the 
situations in refugee camps in some of the most desperate slums 
in the world and efforts being made to turn around the cycle of 
poverty in that region.
    The purpose of this hearing is to build on the information 
they brought back from that investigation. We intend for our 
hearing today to achieve three major objectives.
    First, this hearing will help raise public awareness of the 
dire hunger conditions around the world and our moral and 
legitimate responsibilities to provide assistance.
    Second, this hearing will provide the Congress with a 
better understanding of how food aid programs work as we will 
hear from actual food aid recipients, the U.S. farmers who 
produce the food that make our contributions possible and the 
people in between.
    Finally we will learn more about the current food and 
policy issues and problems so that we can work together to 
improve these programs and make them more efficient and better 
able to fight hunger and to save lives.
    This hearing will have three panels. First we will hear 
from Mr. Jim Morris, the current director of the World Food 
Programme. Mr. Morris brings with him the experience of his 
years of service and his deep understanding of what works and 
what does not work. His advice and suggestions will be 
extremely helpful.
    Along with Mr. Morris we will also hear from two very 
special guests. The first one is Abass Hassan Mohamed. Abass is 
from Somalia. Along with his family he had lived in the Dadaab 
refugee camp just across the Somalia border in Kenya since 
1992. A few years ago, Abass, his scholastic skills were 
recognized. He took the SAT exam and was admitted to and is now 
attending school at Princeton University on a full scholarship. 
His is an amazing story of survival and success.
    Also with us today is Daniel Kuot. Daniel is a member of a 
group of young people who have become known as the Lost Boys of 
Sudan. Daniel is currently working his way through school at 
Truman College in Chicago, Illinois. This is a young man of 
incredible courage, talent and determination and it is an honor 
to have him with us today.
    Our second panel will consist of people on the front line. 
Those who produce, ship and administer the food programs and 
finally we will hear from the Federal agencies that carry out 
these programs.
    In short, people have literally traveled from the far 
corners of the world to be here today for this hearing and so 
we thank each and every one of them for being with us. That 
fact alone tells us how vitally important this hearing is.
    We have many good witnesses here this morning. We're eager 
to hear from their testimony but first I would like to ask my 
good friend, the ranking member, Senator Bennett, for his 
opening remarks and then Senator Durbin for what he would like 
to say and then we will turn to Mr. Morris.
    Senator Bennett.


                 STATEMENT OF SENATOR ROBERT F. BENNETT


    Senator Bennett. Thank you very much, Mr. Chairman and 
thank you for your decision to focus the subcommittee hearings 
this year on particular issues rather than just the items in 
the budget. I think that's a very useful thing to do and this 
hearing will educate the subcommittee and I hope, through the 
press, educate some other people.
    The United States is the world's major provider of 
international food aid. Over the last 10 years the United 
States has been responsible for 60 percent of all food aid 
shipments by major donors and I think this is something that 
the country should be proud of. The aid goes into the most 
insecure areas of the world and it helps millions of people in 
drought and war stricken places.
    Now a substantial portion of that aid is channeled through 
the United Nations food aid agencies, the World Food Programme, 
which Mr. Morris administers. Mr. Morris, we are glad to have 
you here and look forward to your testimony.
    The President has requested $1.2 billion in the fiscal 2008 
budget for Public Law 480 title II and an additional $350 
million for title II as part of the emergency supplemental 
appropriations bill that we will be dealing with here in the 
Senate fairly soon and that's one of the food aid programs that 
this subcommittee oversees.
    Now there are many issues currently impacting the United 
States' role in international food aid, from increased 
commodity and transportation costs to debate over cash versus 
commodities. I hope we will get some of those issues discussed 
here today and get further insight into them.
    So again Mr. Chairman, thank you for holding this hearing 
and for your leadership in setting the agenda for the schedule 
of hearings this year and I look forward to hearing our 
witnesses both this panel and the panels to come. Thank you.
    Senator Kohl. Thank you, Senator Bennett. Senator Durbin.


                 STATEMENT OF SENATOR RICHARD J. DURBIN


    Senator Durbin. Chairman Kohl, thank you sincerely and 
Senator Bennett, thank you both.
    I really appreciate this. We have hearings on Capitol Hill 
about a lot of issues. When we have hearings on war, we fill 
rooms with Senators and others because it's a very critical 
topic and America's soldiers' lives are at risk. Our national 
security is an issue.
    When we have hearings on international food aid, the crowds 
are not as large but I think they're very sincere and committed 
and I thank you, Mr. Chairman for giving us a chance to come 
down today.
    My special thanks to Jim Morris. Jim, you've given, I don't 
know how many years, 4 years, 5 years, of your life to the 
World Food Programme. Starting with Senator Lugar and then 
coming to this program. Jim has been a great leader in helping 
people all around the world. I understand you may be moving to 
some other station in life soon, but I can just tell you that 
many of us appreciate what you've done for the World Food 
Programme, representing our country and helping a lot of 
innocent and helpless people around the world.
    In Nairobi there is a slum known as Kebara. Kebara was 
featured in the movie Constant Gardener. You might have seen a 
few clips from that. I visited there. They estimate there are 
about a million people living in Kebara. They're not sure. For 
40 years, refugees from failed rural towns have been streaming 
into this slum, just setting up lean-tos and tiny rooms and 
trying to survive with limited water, almost no sanitation and 
few creature comforts.
    When you visit Kebara, you can't get over how many children 
are there. It seems that it is alive with children, crawling 
and running in every direction, next to dangerous railroad 
tracks and trying to fill their day with amusements and 
activities.
    I visited there a little over a year ago to a school right 
there in the Kebara slum and they welcomed me during their 
Christmas break. They had announced to the children, who were 
on break, that there was a big shot coming in from America and 
they asked the kids to put on their uniforms and come to 
school.
    I understand they didn't get a very good reception until 
they promised to give them something to eat, 150 children 
showed up in uniform. They sang. They danced and then they 
waited patiently in line as we ladled out this porridge type of 
mixture to them in plastic cups. The kids stood in line as if 
they were at Baskin Robbins in Springfield, Illinois or 
Chicago, waiting for this cup of porridge that probably 
represented the only real meal of the day for them. That cup of 
porridge was brought to them by the World Food Programme by the 
inspiration of George McGovern and Bob Dole.
    It was George McGovern who 7 or 8 years ago, finally said 
it's time to start feeding children around the world at school 
and if we offer them a meal, kids will come to school and more 
importantly, young girls will come to school. Educated girls 
are less likely to become mothers too soon, more likely to 
become leaders in countries that desperately need their 
talents.
    We are now engaged in a battle around the world, as we have 
been, for many years. A battle that frankly is one which we 
struggle to find the right tactics to use and I guess the 
legitimate question is, what is America's future in this 
troubled world, a world where many are not being educated and 
some are being educated in hatred, hatred for the United States 
and rejection of our history and our values.
    We want to win the hearts and minds of those people, but I 
think first, we have to help fill their stomachs. When they 
receive food from the United States it defines us. It tells who 
we are and what we stand for and that we care.
    I hope, I just hope, that some of those children and their 
parents in Kebara, who were fed that day will come to 
appreciate and understand better who we are and I thank you Mr. 
Chairman for giving us a chance to address these programs 
today.

STATEMENT OF JAMES T. MORRIS, EXECUTIVE DIRECTOR, WORLD 
            FOOD PROGRAMME
    Senator Kohl. Thank you very much, Senator Durbin. Mr. 
Morris.
    Mr. Morris. Thank you very much, Senator Kohl, Senator 
Bennett, Senator Durbin.
    Senator Durbin, I promise you that the people in Kebara 
will be eternally life long grateful for the support the United 
States has given them through Food for Peace and the World Food 
Programme in giving their children a chance and given a chance, 
the children of Kebara can do all of the great things that a 
child from Chicago or Milwaukee or Salt Lake City or 
Indianapolis can do. They just need to be given the opportunity 
at the beginning of life and if that's compromised at the 
beginning of life, no matter what the remedial action is later 
on, they will never catch up. Their lives will be compromised. 
I believe that the life of a child wherever he or she is, is 
equally precious anyplace on the globe.
    This is essentially my final; I don't want to say 
performance, but my final act really, publicly as the Executive 
Director of the World Food Programme. I have been in this 
position now 5 years and have done it because my country asked 
me to do it. People thank me, in fact, like most good things; 
you get so much more out of it than you put into it. It's been 
the greatest blessing of my life. Every day for 5 years, I have 
been so incredibly proud to be an American. What the world 
expects of America, the leadership, the entire world expects 
from our country is overwhelming.
    Today we have a chance to think about, to acknowledge what, 
in my judgment, is the most powerful, successful, valuable, 
sustained piece of American overseas development assistance of 
American foreign policy in the history of our country and 
maybe, likely, the most important humanitarian commitment the 
world has ever known.
    In the early 50's, President Eisenhower said the world will 
be changed with wheat, not weapons and he put in place, Food 
for Peace. In the last 50 years, this program has fed more 
than, almost 4 billion people in 135 countries, providing more 
than 111, 115 million metric tons of food. Many of the 
countries have become our very good friends or very good 
trading partners. We've changed the lives, through the 
sustained effort, of billions of people.
    It's been supported by agricultural interests, transport 
interest, people from every State in the United States. It's 
had remarkable, solid, bipartisan support in the White House 
and in the Congress and when you couple it with the efforts, 
the success of our land grant college program, the Peace Corps, 
the McGovern-Dole education efforts, USAID and the U.S. 
Department of Agriculture, collectively; all of this has 
changed the world, all for the better.
    The World Food Programme is the largest humanitarian agency 
in the world, the largest program of the United Nations. In 
2004, we provided food, in conjunction with about 2,300 NGO 
partners for 114 million people. We are heavily involved with 
natural disasters, with conflict, with health issues. The World 
Bank would tell you that in the last 30 years, there has been a 
four fold increase in natural disasters in the world, 400 last 
year.
    The World Bank would also tell you that the most powerful 
investment any country in the world, be it the United States 
and Canada or Bangladesh and Malawi, can make in its future is 
to be sure that children are born to healthy mothers and 
nourished substantially the first 24, 36 months of life. If 
that happens, they have every chance in the world.
    The World Health Organization would tell you that hunger 
and malnutrition, the most serious health problem in the world 
and the people that deal with the HIV/AIDS issue would tell you 
that food and nutrition is the single most important factor in 
the fight against HIV and AIDS. 854 million hungry people in 
the world, the number's increasing about 5 million a year, half 
of them are children.
    Mr. Chairman, you correctly stated that 25,000 people die 
every day of malnutrition, 18,000 of them, children. In 2007 
it's just simply not acceptable for that tragedy to be 
occurring.
    We talk about the tsunami. The tsunami lost 250,000 people 
to death. The fact of the matter is because of hunger and 
malnutrition, there are three tsunamis in the world every month 
of every year. The numbers are overwhelming.
    Food for Peace is the bulwark, the backbone of the work of 
the World Food Programme. You made it possible for us to feed 
26 million people for 1\1/2\ years in Iraq. You made it 
possible for us to feed 6 million people last year in the Sudan 
and Darfur, the same number in Ethiopia, overwhelming numbers 
of people in the Horn of Africa, in southern Africa, but not so 
far from home, in Haiti, in Guatemala.
    Guatemala has the highest percentage of chronically 
malnourished children. Half the kids under five in Guatemala 
are chronically malnourished and if you go into the indigenous 
population you will approach 60, 70 percent of the children. 
Their lives are at risk. That country's at risk if the kids 
aren't fed and have a chance to go to school.
    Hunger is at the base of making progress on education, on 
health issues, on economic issues, on prosperity. It's at the 
base of making progress on the millennium development goals. 
It's at the base of giving people hope and opportunity for 
their lives and I simply say to you that the sustained 
commitment to Food for Peace, representing the best of American 
agricultural prosperity and productivity and the generosity of 
the American people is extraordinary.
    My hope is that as you look at title II of the Ag bill that 
you would consider thinking about the Administration's request 
for adding $300 million in cash. We raise every penny of our $3 
billion budget on a voluntary basis every year. We receive no 
core funding from the United Nations January 1, we go out to 
raise the money and when I came we were raising it from 50 
countries and as I leave we're raising it from 100 countries.
    It's been a remarkable spreading of the base but given the 
fact that the price of corn has doubled in the last 6 years. 
The price of wheat and rice has increased by 60 percent the 
same time frame. The cost of transport and shipping has 
increased dramatically primarily because of competition for 
those services but also because of the price of oil.
    The same dollars buy about half as much today as they did 6 
years ago. So it would be my hope that you would find a way to 
increase the title II allocation. My hope would be you might 
even look at a $.5 billion, that you would consider part of it 
in cash, that you would consider doing it up front as opposed 
to supplemental appropriations.
    We know that money committed in the very beginning, the 
same dollars, feed 30 percent more people if the money is 
available at the beginning of a crisis as opposed to the end. 
The Bill Emerson Trust, remarkably important. We would 
encourage you to be more flexible, have more accessibility and 
make it easier to replenish the Trust.
    The McGovern-Dole program, so important, we fed 22 million 
children in 70 countries in school last year, 56 million 
children overall. There are 400 million hungry kids in the 
world; 150 million of them have no help.
    My fondest hope and I believe it's an earned and deserved 
opportunity is for the United States to take the lead in saying 
that we are going to eliminate child hunger in the world.
    Just a few weeks ago, Iceland said we are going to feed a 
child in Africa for every child we feed in Iceland. Luxemburg 
has made the same commitment. Canada has made an extraordinary 
commitment inspired by McGovern-Dole.
    My last comment in the larger context, so important, 
investment in basic agricultural infrastructure, the percentage 
world wide of ODA going for simple, basic, agricultural 
infrastructure has gone from 11 percent to 3 percent and the 
fact of the matter investment in roads to get goods to market 
and investment in irrigation and investment in implements in 
seeds and fertilizer, really important. And the leverage of 
these small investments is enormous.
    So, Mr. Chairman, I apologize for going beyond my 5 
minutes. I can hardly say good morning in 5 minutes.
    Mr. Morris. The record of our country, the generosity, the 
sustained commitment, I believe there is no country in the 
history of the world that has ever cared more deeply about 
doing the right thing and making life better for every person 
who is at risk.


                           PREPARED STATEMENT


    The most powerful investment we can make is in eliminating 
hunger among children, seeing they have a chance to go to 
school, that they're nursed by a healthy mom, and everything 
about their life changes for the better and our country's 
record is extraordinary but the fact of the matter is we all 
have to do more and it's just unacceptable in 2007 for 18,000 
kids to die every day when we can solve that problem. We have 
the food. We have the know-how. We have the good will and it's 
not complicated to do. Thank you, sir.
    [The statement follows:]

                 Prepared Statement of James T. Morris

    Thank you for this opportunity to address you on an issue that is 
critical to our future peace and prosperity: conquering hunger and 
malnutrition among the world's poor.
    I stand before you near the close of my 5-year tenure as Executive 
Director of the United Nations World Food Program, or WFP--the world's 
largest humanitarian organization and provider of food aid to the 
hungry poor. These five years have been ones of unprecedented challenge 
to WFP and other organizations fighting world hunger. We've had to 
confront a rising tide of need, especially from natural disasters and 
conflict, sharp increases in commodity and fuel prices--and the cold 
fact that resources are simply not keeping pace. High-profile 
emergencies like Darfur and the Indian Ocean tsunami have significant 
costs, while chronic hunger among the poor is growing by more than 4 
million per year since the mid-1990s; it persists in places as close by 
as Haiti and Guatemala. We are also seeing the toll of a lethal mix of 
AIDS and malnutrition, especially in southern Africa.
    I am deeply proud of what WFP has accomplished. In Iraq, we fed 
each and every one of 26 million Iraqis for a year and a half--the 
largest humanitarian operation in history. Even at the height of the 
war in 2003, we were moving 1000 tons of food an hour, 24 hours a day, 
7 days a week. The devastating 2004 tsunami was also without parallel--
as was the tremendous logistical operation that followed; WFP was 
distributing food in Sri Lanka within 48 hours, one of the first to 
deliver to those whose lives had been ripped apart.
    Africa, where one person in three is malnourished, continues to be 
a major challenge. Africa has faced ever-greater waves of drought, 
conflict and displacement--pushing millions of people into crisis in 
Sudan, the Horn of Africa, the Democratic Republic of Congo, Niger and 
other countries. Worse yet, climate change now threatens to make 
drought and desertification semi-permanent in many parts of Africa. 
Meanwhile, the hard-won economic gains of southern Africa--once 
breadbasket for the continent--are under extreme pressure from the 
``triple-threat'' onslaught of HIV/AIDS, worsening drought and 
declining government and civil capacity. The disease has decimated the 
ranks of farmers and other productive sectors of society in that 
region: some 8 million farmers have died of AIDS in the past two 
decades. And while 2006 was comparatively calm--without a sudden, 
headline-grabbing natural catastrophe--the number of the hungry just 
keeps going up. We are also worried about prospects for the coming 
cereals crop: prices are spiking as South Africa, the major regional 
supplier, is expected to have a poor harvest this year.
    WFP is feeding close to 100 million people a year and our NGO and 
other international partners feed another 100 million. While the world 
has seen significant progress made in fighting poverty, especially in 
China and India, we are actually losing ground in the battle against 
hunger. Foreign assistance budgets in the developed world are at 
historic levels, but decreasing proportions are devoted to dealing with 
chronic hunger or long-term agricultural development. This is an 
untenable situation we ignore at our own shame--and risk. Especially at 
a time when food and wealth are more abundant--and technology 
unsurpassed--than at any point in human history.
    Let me lay out a few sobering facts.
    There are more than 852 million people today who go to bed unsure 
of their next meal--half of them children. The World Health 
Organization (WHO) describes hunger as the world's No. 1 public health 
threat--killing more people than AIDS, malaria and tuberculosis 
combined. Few people know that 25,000 people--18,000 of them children--
die each day of hunger and related ailments. That's one person dead, 
because of hunger and malnutrition, every 4 seconds--365 days a year. 
At that rate, the entire population of Wyoming would be wiped out in 
just 3 weeks.
    Even when hunger and malnutrition don't kill, they sap the vitality 
and productivity of individuals--especially children--with lasting 
negative impact on their countries as a whole. Good food and nutrition 
are essential for pregnant mothers, newborns and children in the first 
2 years of life. Under-nutrition in those first years can permanently 
stunt mental and physical growth--dropping IQ levels by as much as 15 
points. A new study by WFP and the Economic Commission for Latin 
America and the Caribbean spotlights the economic costs of child under-
nutrition in Costa Rica, El Salvador, Guatemala, Honduras, Nicaragua, 
Panama and the Dominican Republic: it estimates combined economic 
losses due to under-nutrition among children at a staggering $6.6 
billion for the region in a single year (2004)--or about 6 percent of 
GDP for those seven countries.
    Imagine the implications for economic development in even poorer 
countries like Ethiopia--where stunting rates among children exceed 60 
percent--or North Korea, where the average 7 year-old is 20 pounds 
lighter and 8 inches shorter than his 7-year-old peer across the border 
in South Korea. Tragically, these children will never ``catch up'' with 
those more fortunate. Neither will their countries, so long as we allow 
this terrible misfortune to persist.
    Fact is, resolving the problem of chronic hunger is fundamental to 
tackling all the major challenges of the poor world--in education, 
health, the socio-economic and agricultural spheres. It's self-evident 
that development is simply not possible on an empty stomach. If you 
look at America's own experience, the incredible post World War II boom 
was accompanied by a vigorous bipartisan effort to combat malnutrition, 
spearheaded by dedicated leaders like Senators George McGovern and Bob 
Dole. The World Bank believes that investing in the proper nutrition 
and health of a young child is the single most powerful investment one 
can make in a better future for the poorest nations. Here in the United 
States, we need look no further than the amply documented successes of 
the Federally funded WIC program to know that this assessment is 
correct.
    At the turn of this century, the world's leaders sat down together 
to establish the Millennium Development Goals they felt were vital to 
our collective well-being and security in the future. The head of every 
country voted ``yes'' to make eliminating poverty and hunger the No. 1 
target--and they set 2015 as the deadline for slashing the proportion 
of hungry people in the world by half. Unfortunately, that goal is 
slipping rapidly from our grasp.
    President Eisenhower once said you can change the world with 
wheat--and not weapons. Eisenhower launched Food For Peace--which has 
grown into the greatest humanitarian instrument the world has ever 
known.
    Initially created in 1954 to share America's rich harvests with 
those in need in postwar Europe and other countries, Food For Peace has 
helped more than 3 billion people in 135 countries--saving millions of 
lives and transforming those of millions more. During its first half-
century, Food for Peace shipped more than 110 million tons of 
commodities. Put into trucks, that amount of food would encircle the 
globe, bumper to bumper, right around the equator.
    Commodities that Food for Peace sends around the world come from 
virtually every state of the union--engaging thousands of American 
workers en route. These American working men and women range from 
farmers and millers, to stevedores and freight forwarders, all guiding 
an unbroken chain of production and distribution to feed the world's 
hungry. The United States government--and by extension, the American 
people--is WFP's most generous donor, funding more than 40 percent, or 
around $1.2 billion, of our operating budget. Food for Peace provides 
the lion's share of these contributions--enabling us to reach out to 
countless millions of people every year. We are so grateful for your 
help.
    Food for Peace is a powerful expression of American generosity and 
goodwill around the world. It not only saves lives in big emergencies 
like Afghanistan or last year's Pakistani earthquake, but gives hope to 
the millions of families living lives of quiet desperation in refugee 
camps around the world. You will hear today from two extraordinary 
former refugees--Abass Mohamed of Somalia and Daniel Kuot of Sudan--
eloquent testimony to the fact that a well-timed intervention of food 
aid can not only rescue a life, but propel it in a positive new 
direction.
    Food for Peace's support for WFP programs in Sudan has done both--
providing a record $1.51 billion to Sudan emergency food operations 
over the past five years. The U.S. government also has funded crucial 
support operations to ensure effective delivery of food: over the past 
five years, USAID's Office of Foreign Disaster Assistance, for example, 
has provided $41 million for air operations, surface transport fleets, 
food warehousing and telecommunications facilities. Further, the U.S. 
government has been the largest supporter of a unique and vital WFP 
operation to de-mine and rehabilitate nearly 1,300 miles of roads in 
southern Sudan--not only opening up the South to better food delivery 
and commercial trade, but providing one of the first tangible ``peace 
dividends'' in southern Sudan.
    The United States has not only supported our humanitarian work in 
Sudan with money, but has gone the extra mile to divert vessels, 
expedite food procurement, accelerate apportionments and exercise 
diplomatic influence around the world to ensure the food ``pipeline'' 
remains strong and reliable. The bottom line is: without U.S. support, 
it is impossible to imagine how we would have continued to feed the 
desperately hungry in one of the toughest operating environments in the 
whole world.
    Sudan is only one of a long list of countries where WFP operates 
that would have been in deep trouble without American assistance. In 
Ethiopia, home to one of our consistently largest operations, the U.S. 
government has supplied nearly 80 percent of current funding. In Chad, 
hard-hit by escalating conflict and displacement, the United States is 
our most generous donor--supplying three-quarters of the emergency food 
aid received so far. In Afghanistan--still beset by turmoil and huge 
needs--the U.S. government has provided roughly half of resources 
received over the past year.
    Over the years, American food aid has also helped change the 
outcomes for many countries. South Korea--once heavily dependent on 
Food for Peace--is now a reliable, multi-billion dollar importer of 
U.S. food. In the 1960s, Food for Peace dispatched millions of tons of 
cereal grains to India. Today, India feeds itself and is a net exporter 
of food--and a donor to WFP. This is in large measure due to food and 
agricultural development assistance from the United States and the 
United Nations--notably including the Green Revolution led by our own 
Nobel Laureate, Norman Borlaug. Sometimes people worry about food aid 
fostering dependence, but our experience is proof to the contrary. More 
than 20 countries receiving food aid in the last 15 years no longer do 
so.
    Our Land-Grant College system is yet another wonderful example of 
how Americans have worked to make a difference for those less fortunate 
in the world--spreading not only knowledge, but goodwill. For decades, 
Land Grant Colleges have brought in foreign students for agricultural 
training; those students then returned home to implement the theories 
and practices they absorbed there. For example, Iowa State granted 
Masters in agricultural economics to former Sudanese Vice President 
John Garang as well as former Taiwan President Lee Teng-Hui. The U.S. 
Peace Corps has also deployed American skills and know-how in the field 
in the developing world to great effect.
    The United States has helped the hungry in other significant ways--
notably via the McGovern-Dole International Food for Education and 
Child Nutrition Program. School feeding is a simple yet incredibly 
effective instrument in breaking the cycle of poverty--perhaps as close 
to a ``magic bullet'' as I know. Providing a meal in school not only 
attracts hungry children to school, but keeps them there: research 
consistently shows how the introduction of school feeding boosts 
enrollment, attendance and academic performance. For girls, often left 
out of education in the developing world, school feeding offers 
potentially dramatic life change: even 5 years in school means that 
girl will marry later, have fewer children, while those children will 
be healthier and better-educated. She will also be less likely to 
contract HIV/AIDS, since education is the only vaccine we have against 
that deadly epidemic.
    Beyond the positive outcomes, school feeding is a bargain: just 19 
cents a day, or $34 a year, provides a meal at school for a hungry 
child.
    School feeding is a ``win-win'' for everyone--as we have seen 
through America's own experience. Senator George McGovern likes to 
recount how a University of Georgia dean credited the American school 
lunch program as doing more for the economic development of the 
Southern States than any other Federal program. McGovern applied that 
logic when, along with Senator Bob Dole, they rallied bipartisan 
support for U.S.-supported school feeding abroad--winning an initial 
investment of $300 million. Funding for this year's McGovern-Dole 
program currently stands at $100 million.
    Today, the United States has a wonderful opportunity to capitalize 
on its investment in school feeding through bipartisan initiatives now 
under way to significantly expand and regularize funding for McGovern-
Dole. If realized, these initiatives would ensure the continuity of 
these absolutely vital school programs, so that we keep our promise to 
the schoolchildren of the world. This relatively modest investment 
would reap enormous benefits not only for the recipient countries--
which get a solid foundation for fighting poverty and instability--but 
for all of us in the long run.
    These five years have been the most meaningful, educational and, 
frequently, the most heart-rending time of my life. Although foreign 
assistance budgets including that of the United States have continued 
to rise, there is so much more to be done. The challenges are ever more 
daunting.
    War and political instability continue to rage, from Darfur to 
Afghanistan--while Iraq's neighbors are now coping with a rising influx 
of refugees from that conflict. The latest ``Global Hunger Index'' from 
the Washington-based International Food Policy Research Institute 
(IFPRI) says the five countries with the worst rate of hunger are all 
either caught up in war, or emerging from long years of conflict 
(Burundi, Eritrea, Democratic Republic of Congo, Ethiopia and Sierra 
Leone). The World Bank, meanwhile, estimates that natural disasters 
have risen an astronomical 400 percent over the past 30 years, while 
U.N. scientists predict that climate change will cause alarming 
increases in food insecurity across Africa in the next 50 years.
    HIV/AIDS has taken a devastating toll on food security in places 
like southern Africa, and again, resources are not meeting the needs. 
In particular, we must recognize that adequate food and nutrition are 
vital to tackling this epidemic. Experts predict there will be 25 
million AIDS orphans by 2010 and child-headed households are growing 
astronomically. These young people need food support to survive, but so 
do the poor people who receive AIDS medication--but take it on empty 
stomachs. This is especially true in Africa, where one in three people 
are malnourished. Good food and nutrition means HIV-positive people can 
continue productive and active lives, because they're able to stick to 
their drug regimens, and those regimens can be successful. Drug therapy 
without adequate food and nutrition simply does not make sense--but the 
world has yet to grasp that reality.
    On the response side, we are also facing tremendous challenges. 
Fuel and commodity costs have shot up alarmingly over the past 5 years, 
which means that every food aid dollar buys less. Last month, maize 
cost almost double what it did in 2001. The export price of both rice 
and wheat rose some 60 percent over the same period. Higher transport 
costs, due to the price of oil, also mean we buy still less food with 
the same amount of cash. These trends pose a great risk to our work and 
to the poorest people around the world whom we serve.
    As noted, foreign assistance from the developed world is at an 
historic high: Bread for the World says poverty-focused development 
assistance has grown from $4 billion in fiscal year 1999 to $10.6 
billion in fiscal year 2006. WFP itself received record contributions 
in 2006 of $2.8 billion. Yet these impressive numbers mask the rising 
supply-side costs as well as the hidden costs of the significant lag 
time between a pledge of food aid--and its actual materialization on 
the ground. This not only means higher operational costs for WFP--since 
crises often expand in the interim--but for the hungry poor at the 
receiving end, these delays can mean loss of livelihoods, precious 
household assets as they sell them off to survive, and in the very 
worst scenarios, loss of life.
    Record contributions also mask the fact that many of our programs 
remain woefully under-resourced, from Guatemala--with the Western 
Hemisphere's highest rate of child malnutrition--to North Korea where 
mothers scour the hills for acorns and bark to feed their families, to 
areas of the Philippines where conflict has pushed high numbers of 
people into displacement and serious hunger. And any budget deficit for 
the World Food Program is more than just an accounting conundrum. 
Insufficient funds mean we face two choices: either we take some people 
off our ration lists, or we give everyone less food. This is a horrific 
choice at least one WFP country director faces every month. Even in a 
year of record contributions, we have had to cut rations in Darfur and 
halt nutritional support to some 90,000 HIV/AIDS and TB patients in 
Cambodia.
    The good news is that the solutions are within our reach: we have 
not only the food, but the know-how to conquer the scourge of hunger 
that has bedeviled us since the dawn of human history. It is also 
affordable. Targeting the roughly 150 million underweight children in 
the world with an ``essential package'' that would enable proper 
nutrition and health practices would cost some $8 billion a year--more 
or less what the American school lunch program costs per annum. That's 
a cost that would undoubtedly be graciously shared, were America to 
lead the way. Further, these children are not only identifiable, but 
relatively contained in geographic terms: three-quarters of them live 
in just 10 countries, while more than half of underweight prevalence in 
Africa is in just 10 percent of administrative districts. Like school 
feeding, this is not a ``pie in the sky'' concept. It is doable--
doable, that is, if we summon the political will to make it happen.
    How can America demonstrate its humanitarian leadership in the near 
term?
  --Increase allocation for Title II by $500 million above the 
        administration's 2008 request for $1.2 billion, to cope with 
        not only the rising tide of human need--but with significantly 
        higher commodity and transport costs. Funding at the ``front 
        end'' as opposed to the supplemental process will enable these 
        much-needed funds to be planned and programmed--a far more 
        efficient and effective use of U.S. food assistance;
  --Urgent review of the Bill Emerson Humanitarian Trust, to make it 
        more flexible and accessible, and more easily replenished. The 
        Emerson Trust is a wonderful, life-saving mechanism, but it may 
        be used in an even more effective way;
  --The language of McGovern-Dole--which as I've noted should be 
        expanded itself--should become the template for American food 
        assistance across the board. McGovern-Dole provides 
        commodities, transport and cash where needed--underwriting 
        remarkable programs that can achieve lasting results--the best 
        use of U.S. taxpayer money;
  --All donors must find a way to restore meaningful levels of longer-
        term agricultural development assistance in the rural areas 
        that are home to 75 percent of the world's poorest and 
        hungriest citizens--the ones who live on less than a dollar a 
        day. Agricultural development aid plummeted from 11 percent of 
        global foreign aid 20 years ago to just 3 percent at present--a 
        trend that can--and must--be reversed. The World Bank estimates 
        that a mere 10 percent increase in crop yields would reduce the 
        proportion of people living on less than a dollar a day by up 
        to 12 percent. This is an excellent investment sure to bring an 
        excellent return. The United States, with its successful 
        history of domestic agricultural investment and education, is 
        uniquely equipped to lead the way on this front;
  --I would like to add here that WFP supports President Bush's budget 
        plan that would allocate up to 25 percent of Title II funds for 
        cash in humanitarian emergencies. While we cannot do our work 
        without U.S. commodities, cash is a wonderfully flexible 
        instrument in crises where we can't afford to wait for pledges 
        to materialize on the ground. However, we and our partners 
        would like to see this money as additional to current Title II 
        levels.
  --Such cash donations could, of course, be targeted to purchases only 
        from least developed countries so as not to influence normal 
        patterns of commercial trade, and we would also urge that WFP 
        be allowed to use U.S. cash for twinning operations. Just 
        recently, we were able to restart feeding programs for 90,000 
        people affected by AIDS and TB in Cambodia--precisely by 
        combining a commodity donation of rice from the Government of 
        Cambodia with a cash donation from the Government of Dubai. 
        Twinning is an incredibly efficient mechanism and encourages a 
        spirit of ``self-help'' in those countries receiving aid. This 
        is something that all Americans can value and appreciate.
    Finally, thank you, Senator Kohl, for your outstanding leadership 
and the dedication of you and your staff. U.S. food assistance saves 
lives, builds hope and goodwill, and lays the foundation for 
sustainable development around the globe. We at WFP--and the millions 
of people who are reached by this assistance--are forever grateful.

    Senator Kohl. Thank you, Mr. Morris for that moving 
testimony and for your service to our country.
    Mr. Morris, food aid has been criticized for creating 
dependence in certain parts of the world and not allowing 
people to become food secure. A lot of food aid goes towards 
emergencies and that takes away from problems of chronic hunger 
and developing the local markets. What approaches are there to 
deal with chronic hunger as opposed to emergency operations and 
does food aid lead to food aid dependency?
    Mr. Morris. Sir, I do not believe that food aid, properly 
administered leads to dependency. Most people don't want to 
have a dependency on anyone. They want to have the capacity to 
take care of their families and be economically on their own.
    Our food, in the first place, 80 percent of it, and 80 
percent of the Food for Peace, responds to emergencies. Six, 
eight years ago, it used to be 50-50. Given the growing number 
of emergencies in the world, the world has made a decision that 
it has to save the life that's at risk today.
    We know that an investment in development, in mediating a 
problem, preventing a problem, the leverage is 5 or 6 times. If 
we spend that money to help that little town in Ethiopia get 
prepared for the next drought. A very small investment can save 
that community.
    The impact on lives is enormous, but we work very hard. 
About half of what we have to work with, we buy locally. We 
work very hard at not effecting markets. We don't want to move 
the price up or down. Our job, through our food for work, is to 
give people the capacity to be on their own, to manage their 
own productivity, but the people we worked with, they are so 
completely at risk of tough health issues, of no education, of 
no productivity. You invest a little bit of money in providing 
a meal for a child to be drawn to school, to stay into school 
and to learn. Suddenly everything about that child's life 
changes and he or she is able to take care of themselves.
    We have closed our office, by the way, in 25 countries that 
no longer need us. We want to get out of business. We are not 
trying to sustain this effort but the fact of the matter is the 
numbers of hungry people so overwhelming and the lives lost and 
the lives that are compromised. We know if we feed that family, 
that HIV positive person, and they have the anti-retroviral 
treatment, in a matter of months, their life can be almost back 
to normal. That's not building a dependency relationship, 
that's giving a person the opportunity to be on their own.
    And you address this issue with children. You change their 
lives early in life. Investment in someone my age is marginal 
and the investment in a child 5 to 15 has a lifetime to pay 
off.
    Senator Kohl. But.
    Mr. Morris. Thank you.
    Senator Kohl. Before we go any further I'd like to hear if 
you wish, Mr. Mohamed, Mr. Kuot, any remarks you would like to 
make. Mr. Mohamed.
    You want to turn your mike on. Press that button.
STATEMENT OF ABASS MOHAMED, FORMER FOOD AID RECIPIENT 
            FROM SOMALIA
    Mr. Mohamed. Good morning ladies and gentlemen. My name's 
Abass Mohamed. I'm originally from Somalia. I currently live in 
Kenya. I was born in town called Abu Aline in southern Somalia. 
I'm 25 years old.
    I remember being in Somalia enjoying my childhood and at 
the age of 10 everything was disrupted by the toppling of the 
then government of Somalia and plunging the country into chaos. 
In the months that followed we had to move from town to town 
looking for a place to seek refuge, a place where we can get 
protection. We went to a small town called Harun Tasheirka, 
which is a town regarded as holy and therefore we thought we 
could be safe in that town.
    When things got tougher and we couldn't even be safe in 
that holy town and my fathers safety, especially, was in 
danger. We decided it was time to go to Kenya where we had, the 
United Nations was accepting refugees. We had to walk on foot 
from that town in central Somalia for like 2 days, without food 
and water. We didn't have any money. We were lucky to find some 
water and food left behind by other fleeing people. We used 
that to reach our next destination which was a small town in 
Somalia which is closer to the Kenyan border.
    In that town, my father sought monetary aid from family and 
friends to use of the transport, of the fare, to get to the 
Kenyan border. When we came to the Kenyan border, weak, hungry, 
thirsty, we were met by staff from the United Nations Refugee 
Agency and we went through vetting and registration and we were 
moved to a camp in Northeastern Kenya called Ifo.
    Ifo is one of three camps that are commonly known as the 
Dadaab. I remember coming to the Dadaab and one of the first 
things I remember was people building makeshift houses using 
plastic sheets provided by UNHCR and the place was dusty. There 
were storms of dust. It was very, very hot. There were barely 
any trees. Also, people were trying to establish themselves, to 
get food, to get water, the United Nations, with other 
agencies, of providing those basic necessities.
    There were no honor schools at the moment, at that time and 
therefore I couldn't enroll in school at that time. I went to 
school a year later when the foster school was established. I 
went to school and I was the first to be enrolled and I 
remember there was no blackboard, there was no chalk, there was 
no classroom. We had to remember that tree, using the sun, 
using the sun as the blackboard and chalk.
    Interest developed and very many refugee students came and 
it was overwhelming for the teacher. Then the NGOs intervened 
and classrooms were built, more teachers were employed. I went 
through that system and in 1997 the system of education was 
changed to a Kenyan system and I had to repeat a year to 
accommodate the changes.
    In 1999, I sat for a national exam, which is taken after 8 
years of school in Kenya, called Kenyan certificate of primary 
education. I did well, so was my brother, so were other kids. 
The United Nations, together with other NGOs build a secondary 
school in each of the three camps and I was one of the first to 
be enrolled in that secondary school in February 2000.
    Those of us who graduated from primary school were 70 in 
number and those who were eligible to be admitted to secondary 
school were 44. The rest could not make secondary.
    The school was relatively young and it was seriously under 
resourced. Teachers were very, very few and they just had to 
teach more than one subject because there was no one to teach. 
All those subjects would go untaught. There was no lab to talk 
of at the moment. At that time it was just a building with no 
chemicals or with nothing inside but with time, NGOs good funds 
and they started putting in stuff bit by bit, but we couldn't 
do experiments because always one thing or another was missing 
which was important for the experiment.
    Going through that I did my national exam for secondary 
school in 2003, October/November 2003 and I was lucky to have 
performed well. Within that same year came a professor from 
Canada, a Howard Adelman, who was also teaching in Princeton 
for a year and he met the NGO heads and they discussed the 
possibility of some of us who graduated from high school to get 
a higher education and when Professor Howard Adelman came back 
to the United States, to Princeton, in particular, I think he 
just cast the possibility of some of us joining Princeton and 
when the results came out, two of us were asked to apply to 
Princeton.
    We went through the normal admission process. In 2004, I 
was interviewed by a Princeton professor in Nairobi, Kenya. In 
January 2005, I did my SAT's and some time in April/May I got 
my admission with full financial aid. My other friend was not 
admitted. He's actually now, he got admitted to Toronto 
University. He's to move to Canada to join Toronto University, 
a university in Canada this fall.
    I remember when we came as refugees we believe that 
education is very important because when we have to go back 1 
day, back to our countries for example, I being from Somalia. 
We would leave all these structures behind, but what would go 
back home with is education. We can't go to school without 
eating food.
    I remember when I was finished high school; I was a teacher 
for 2 years. You would know what it means to teach hungry 
students. They won't be able to pay attention. They sometimes, 
some tension and it is very difficult to keep discipline in the 
school when you have to deal with the students that are hungry. 
Because we believe that education is important, parents, 
refugee parents stress on the importance of their children 
going to school. So whenever the opportunities are available, 
the refugee kids go to school.
    The school feeding program which was started in the primary 
schools in the camps was especially very successful. My sister 
who is in the standard age this year is a beneficiary of that 
program and it has been very successful, but the secondary 
schools are not covered by the school feeding program. I would 
hope that funds could be found that the school feeding program 
be extended to the secondary schools.
    The kids in Somalia, at least in southern Somalia, they 
don't have any education system to speak of at the moment and 
therefore the Somalis and the Diaspora, especially the ones in 
the camps, the sorts of hope for Somalia. I believe education 
is the solution to the problem in Somalia. Therefore the 
international Committee needs to prepare these young people so 
that they can face the challenge of rebuilding their home 
countries when they go back.
    So, that's an onerous task that's facing them. What we also 
need is an alternative form of leadership which can be provided 
by these people. They are the only source of hope.
    Senator Kohl. Your time is up.
    Mr. Mohamed. Therefore I would like for example, I wouldn't 
be here speaking to you today if that day when I was at the 
Kenya-Somalia border trying to get into Kenya, if food aid or 
if aid was not delivered to me, I wouldn't be here today 
speaking to you. I wouldn't be in Princeton today seeking 
knowledge and empowering myself.
    There's so much that can be done to help and empower the 
young people, especially in the camps. They have so much 
talent, that talent is getting wasted. If someone can help them 
then they will be able to help themselves and their families 
and their communities and their countries.

                           PREPARED STATEMENT

    I would especially send a personal appeal to the honorable 
U.S. Senate to continue supporting, to stand by the people in 
the Dadaab. They need your help. They need your help so that 
they can make a better future for their children and so they 
can make a better tomorrow for their countries back home.
    [The statement follows:]

                  Prepared Statement of Abass Mohamed

Dadaab Refugee Camp
    My name is Abass Mohamed. I was born in Bu'alle, southern Somalia 
in 1982. My father worked for the government as a typist and my mother 
was a self-employed shopkeeper. My family is comprised of nine members: 
My paternal grandmother, my parents and 5 of my siblings and I. I 
enjoyed happy childhood and was standard two when everything was 
disrupted by the toppling of the then government and thus plunging the 
country into civil war. My family was displaced within Somalia from Jan 
1991 to Feb 1992. We were held up in a small town in southern Somalia 
called Harunta-sheikha where we sought refuge for 4 months. During this 
time, we were all the time on the look out for possible escape out of 
the town since we were under constant fear for our safety especially of 
my father. There was daily killing, looting and raping. Militias of 
warring clans would from time to time force into people's homes and 
interrogate them on their clan affiliation and killing anyone who 
claimed to belong to enemy clan. One day, we were able to escape on 
foot carrying whatever of our meager belongings we could on our backs. 
We did not have food or water. We also did not have money to buy food. 
Luckily on the way we found food and water left behind by other fleeing 
people. Fortunately too, along the way we found a truck ferrying 
fleeing people especially women and children. The truck driver agreed 
to give a lift to my grandmother, my mother, my siblings and I. My 
father was very thankful for this humanitarian gesture. We arrived at 
the town of Afmadow where my father joined us a day or 2 later. We 
stayed in Afmadow for a couple of weeks as my father looked for 
monetary help from friends and relatives which we could use to reach 
the Kenya-Somali border where word reached us that UNHCR was accepting 
refugees. We traveled to the Kenya-Somalia border by public transport 
and we passed through Dhobley, a town on the Somali side of the Kenya-
Somali border. After going through vetting and registration, HCR 
transported us to the newly set up Ifo camp. I remember, Ifo, as a dry, 
dusty place with people building make-shift houses for themselves using 
plastic sheets provided by UNHCR. My father started to work using a 
wheelbarrow he has made himself to transport people's luggage for 
payment. Most of what was transported by my father was the fortnightly 
food ration distributed for the refugees by WFP. After like 6 months of 
work, my father used his savings to start a small business which he 
used to provide for our most basic needs. I did not go to school until 
a year after our arrival because there were no schools established at 
the time. I was one of the first to be enrolled when the first school 
was opened. With no classroom, blackboard or chalk, the teacher would 
use the sand to write on. I went through the education system in the 
camps and finished primary school in 1999 and then was lucky to be 
admitted to Ifo secondary in Feb 2000. I graduated from Ifo secondary 
school in 2003 and performed extremely well in the national exam being 
the best in the Northeastern Province of Kenya and 8 in Kenya.
    As refugees we believe that life in the camps is temporary and that 
we will have to go back home some day. Because of this refugee parents 
emphasize on their kids the importance of making maximum use of the 
education and other opportunities in the camps. I believe education is 
the solution to the Somali problem. There is no education system to 
speak of in Somalia (at least in southern Somalia) at the moment. The 
Somalis in the diaspora such as the ones in the camps are one of the 
few hopes for Somalia. I believe the kids in the camps will form an 
important component of the next generation of Somali leaders. The 
international community needs to prepare these young people for the 
onerous task of helping rebuild Somalia. The refugee kids at least go 
to school even if schools that are seriously under resourced. But they 
cannot go to school if they can't find food to eat. They also cannot 
concentrate well in class if they are hungry or haven't eaten enough 
(this was a particular problem in the schools in the camps before the 
introduction of the school feeding program in the primary schools). The 
food basket in the camps has been shrinking and shrinking over the past 
few years. There is concern of the rise of malnutrition especially 
among children under the age of 5. The school feeding program has been 
a success by increasing enrollment especially of girls, providing 
nutritional meals and snacks and helping children concentrate on their 
studies. This has in turn led to the remarkable performance of refugee 
kids in national exams in Kenya. Thankfully, one of the beneficiaries 
of the school feeding program is my younger sister in standard 8 in 
Midnimo primary school in Ifo camp. She will sitting for her national 
exam later this year.
    We as refugees have to entirely depend on external assistance. The 
camps are located in an area that is a semidesert characterized by 
scrubland, intense heat and very low and unreliable rainfall. These 
conditions make farming almost impossible. The inability to grow our 
own food is compounded by rampant insecurity. Insecurity is evidenced 
by UN and other NGO staff traveling within the camps under heavy 
escort. Cases of refugee women being raped and families robbed are 
common with murders occurring sometimes. For example my house was 
raided by bandits or ``shiftas'' as they are known in a fateful night 
in 1997. They terrorized my family, pointing a gun at my father several 
times and placing a sharp knife on my kneck. Thankfully, no one was 
killed except that they took away clothes and some money which was my 
father's modest savings.
    Therefore given this unusual condition of ours as people who have 
left their homes of origin and who cannot grow their own food or find 
employment in their country of asylum (except for a few of the refugees 
who are employed by the NGOs) it is critical that funding continues for 
the food aid to the camps and the school feeding program in particular. 
It would be a huge boost for the education in the camps if the school 
feeding program can be extended to cover the secondary schools in the 
camps as well.
    I would conclude by urging the Honorable Senate of the United 
States to stand by the people living in Dadaab camps and the young 
people in particular so that they can realize their dreams of becoming 
the source of hope and alternative leadership for their countries of 
origin.

    Senator Kohl. Thank you very much. That was a beautiful 
statement. Mr. Kuot.

STATEMENT OF DANIEL KUOT, FORMER FOOD AID RECIPIENT 
            FROM SUDAN
    Mr. Kuot. Thank you ladies and gentlemen. My name is Daniel 
Kuot. I'm a Sudanese Lost Boy. I'm one of the Sudanese who has 
been fully away from Sudan since 1987. We had to way up all to 
Ethiopia and we had to walk like a thousand miles all the way 
to Ethiopia and at that time we were at like the age of 10 to 
15 years old but there a few who were like 6 to 10. I was one 
of those from 6 years old to 10 on to 15 also.
    We made it like a long journey all the way to Ethiopia. We 
had a tough life in Ethiopia. Incidentally at that time we went 
to Ethiopia there was no NGOs at that very moment but we were 
there for some months, the United Nations knew there was 
refugees in Ethiopia, so most of the UNACRs, like NGOs, they 
came over there and they interviewed the lead over there at 
that time. They started the feedings over there that Ethiopia 
like a little like 1991 and from there we went from Ethiopia 
back to Sudan where Ethiopians started their revolutions 
against each other.
    So we came back to Sudan and in Fruscella and for that the 
war was still pretty tough in Sudan. We went again on a long 
journey about 400 to 600 miles. We walked by foot all the way 
to Noruz which is a Sudan border. That's the location of 
Sudan's border to Kenya. We tried to settle down a little bit 
there but we couldn't make it. The war was still intensive so 
we run all the way to Kenya.
    We made it to Kaukoma and that was 1992, I mean end of 
1991, so our life in Kaukoma for almost 3 years until 1993. The 
United Nation's situation was very critical over there. In 
Kenya and Kaukoma the life was very hard. It was a dry location 
where we were. It was very dry, no water. You can't cultivate. 
You can't grow anything.
    There was like about 87,000 people in refugee camp in 
Kaukoma. Life was so tough. You can't do anything. There was a 
lot of deaths. It was same as desert exactly. Life was critical 
so the United Nations came over there and there was a lot of 
different organizations who showed up over there.
    UNACR was one of the first people who came over there and 
they tried to help a little bit but there was a lot of people 
from Sudan, especially large population from Sudan and some 
Burundis and Rwandans and Somalis and Ethiopians. By this time 
a lot of refugees come to Kaukoma, so their lives become more 
critical.
    The UNACR said it can't take the situation so the World 
Food Programme is able to show up over there and the NGOs and 
they show up over there to assist our UNACR for the back up. 
The situation was getting worse and until World Vision show up 
and also at the end it was still tough. There was like 16,000 
boys from Sudan who can't do anything for themselves at all, 
they have to have some teachers or some elder people to be 
around them so they can show them what to do for their living, 
especially I was one of them.
    So we had 24 zones at schools exactly for the minor groups 
at the age of 16 to 17 so we tend to that age at that time and 
their lives were so critical but more so hard to focus about 
education exactly. Even though with the loss of our families, 
where we belong, our country, exactly, more of us were thinking 
that education was a basic. That was a way that we could make 
it, our future lives and we were having a hope to go back to 
Sudan. We didn't even know that get enough to come over here or 
the rest of the people.
    So the World Food Programme show up like 1994, exactly 
because the situation was worse and it was really tired and 
most of the time they were thinking about going back to school 
and try to do better so the World Food Programme exactly, they 
did a lot of, they opened the feeding centers. There was no 
schools and there was no rest of the everything, no hospitals.
    So the World Food Programme they showed up and build some 
clinics, hospitals and then they opened some schools. They 
changed the schools from the mud schools that we tried to go 
to. They changed them to concrete and with the iron sheets. 
They tried to keep the plastic sheets so we can build our own 
houses where we can live in a minor group.
    So the life was tried to change better a little bit. The 
problem was still on the side of the food exactly. So the World 
Food Programme exactly still working hard. They do a great job 
on the side of the food. They open feeding centers and also 
distribution centers in each area zone. They have a 
distribution center and also a feeding center in every school, 
in each zone.
    So most of us, we thinking about going back to school 
because there was no-where to go so the feeding centers, 
exactly bring us back to school or like a bowls of whatever you 
get from the schools. It can keep you doing whatever you're 
doing in school so the life gets better until we went to school 
in 1996 in Kenya primary schools. That was called KCP, exactly.
    We tried to get acquainted with the area but the area was 
so hostile. There was a lot of winds and a lot of hangers all 
over especially we minors, we didn't give up like a lot of 
people were really suffering a lot. They been bolstered by the 
community, they took them to the community, especially the 
younger. Some teachers took care of them in the community. UNCR 
tried to give them, do some feeding to them and also the World 
Food Programme.
    The situation seemed to be getting better a little bit and 
after that we made it up all the way with most of us through 
primary school was like one to eight. The situation was getting 
better for the foods. The World Food Programme decides to build 
some more secondary school, like three. They opened three 
secondary schools so we can go to finish high school, exactly, 
which is for four, so most of us went to high school that was 
from 1996 to 1997. Most of us that did very well and some of 
them they being sponsored went to London and some they went to 
Canada. The population did increase and increased all the time.
    The situation of the minors group was getting worse. They 
tired to lose some hope especially when you finish from form 
four which is secondary schools. You've got nowhere to go and 
you can't do anything at all. So they give us a scholarship to 
come over here and the United Nations they read about it and 
the World Food Programme, they these kids that they seem to be 
thinking about their future to make their way up.
    So we had an interview with the UNCRs and some of the 
American Congress, they come over there. They say that we have 
to take care of these kids to America. At that time, I think 
Bill Clinton was the one at that time so he approved everything 
and most of the minor groups; they came over here to America, 
about 3,000 kids. Most of them were in foster care and that was 
during 1999 to 2001, most of them in groups and then they bring 
them over here to the United States and after that the rest of 
the minor group that comes over one by one.
    We made it all over and we've been traumatized by all the 
situations and the happenings exactly in Sudan. We tried to go 
where the safety and hope to be comfortable and most of the 
time we were thinking about having a hope to go back to Sudan. 
That's all what most of us were thinking. The majority of us 
didn't have a family at all. Most of us were orphans.
    That's why a majority of us came over here to the United 
States of America. I'm glad to be here in America and to myself 
sometime I can say I'm really glad but also I feel sorry about 
the rest of my fellow school kids back in the refugee camp in 
Kaukoma but I hope they will do better and through the help of 
the World Food Programme and the same time I hope there will be 
a real help and do better and I can do my part like Mr. Morris. 
I didn't even know he's the one in charge of the World Food 
Programme at that time.
    I'm real thankful for the World Food Programme and for the 
Americans for the situation I've been through and they helped 
most of the Lost Boys of Southern Sudan.
    Thanks to all, everyone.
    Senator Kohl. Thank you, Daniel. That was a very fine 
statement. Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman.
    Mr. Morris, I'm concerned about distribution. We provide 
food. We can provide food. Do we make sure the water gets to 
the end of the ditch, to use a phrase that comes out of Utah's 
irrigation background? Particularly governments where there is 
a history of corruption.
    I remember when Yasser Arafat died and he presided over one 
of the poorest organizations or countries, call it what you 
will, the Palestinians. The press reports were that he had made 
off with a billion dollars and I asked the Palestinian Finance 
Minister if that could possibly be true and he said well, we've 
recovered $600 million so far and we're still digging.
    Now you deal with some cash as well as commodities, give us 
an understanding of how. And you deal in parts of the world 
where quite frankly, the level of corruption in government is 
very, very high. Just give us a view into that world and what 
you do to try to deal with corruption to go around it, to 
prevent it from drying up food or siphoning off any of the 
cash. Help me understand that whole challenge.
    Mr. Morris. Thank you, Senator. I could look you straight 
in the eye and tell you that our pilferage rate, our loss rate 
would be less than the large grocery store chain in the State 
of Indiana. We generally do not distribute food through 
governments. We distribute food through non-governmental 
organizations like World Vision or CARE, or the Salvation Army, 
the Red Cross, the Mormon Church. We have 2,300 partners who do 
much of the actual food distribution on the ground.
    Our strength is assessing where a problem is, targeting 
those who are most in need, figuring out how to get food to 
people, wherever they are, in distress in a country, being sure 
that we tell the people who are receiving the food, who paid 
for it. Every bag of wheat we give from America has a flag of 
the United States on it and then we're very careful to monitor 
and evaluate every penny, every bushel we distribute and we 
come back and tell the government of the providing country what 
it made possible.
    Our policies, we, Zimbabwe might be a place that we could 
talk a bit about. I've had nine meetings in this 5 year period 
of time with President Mugabe. My second meeting with him and 
I'm an Indiana businessman. I was not prepared for this kind of 
diplomatic conversation but I said, sir.
    Senator Kohl. You're very diplomatic to describe it as 
diplomatic.
    Mr. Morris. I said, sir, I just need to have a good 
understanding right off the bat. We're not going to interfere 
with the politics of your country. We're here to see the people 
here who are hungry are fed, that women and children who are 
starving have food and nutrition available to them. We'll have 
no tolerance whatsoever for any political interference or any 
guidance on your part as to how we do our work. We expect to 
have universal access to every part of the country and we care 
the same about any person at risk regardless of any other 
criteria and we've been able to do our work. We fed 5.5 million 
people in Zimbabwe last year and by and large with no political 
interference.
    The issue in North Korea is more difficult because there 
are no NGOs in North Korea. The only choice we have in this 
very difficult place to work is to work through the government. 
Our work is with the most at risk, people in orphanages and 
kindergartens, in hospitals, the elderly. We do the best job 
that we can in terms of monitoring and evaluating and trying to 
be accountable for the distribution in North Korea.
    It would be my strong feeling that the elite in North Korea 
have no interest in the food we have to distribute. We would be 
at the low end of the food chain and that wouldn't be of 
interest to them for their diets. It might be of economic 
interest to them but we work very hard and I should tell you 
that it's also very difficult to work there but when you think 
that the average 7 year old boy in North Korea, at age 7, is 8 
inches shorter and 20 pounds lighter than his South Korean 
counterpart, the humanitarian mandate imperative requires us to 
be there.
    I have a great deal of confidence that the water gets to 
the end of the ditch, that we really work hard at targeting 
those who need it the most and we have extraordinary partners 
that we work with. We don't have the luxury, in Pakistan, of 
taking the food to Islamabad and leaving it there. We have the 
responsibility, when you have an earthquake to go to the top of 
the mountain peak where the person is most at risk and we're 
really good at that.
    We are also the United Nations. We have responsibility for 
logistics for transport, for information technology, for 
communications, for much of the U.N. community, humanitarian 
community and much of the NGO community.
    My friend from World Vision behind me in Lebanon when we 
were feeding 830,000 people during and after the conflict, we 
provided the air transport to deliver the food and products 
that World Vision had to take into Lebanon.
    Where we work, it's not like working in Palm Springs. These 
are very difficult places to work but you would be overwhelmed 
with the commitment, the tenacity, the brain power, the focus 
of the people who do our work and they're there to see the 
people who are hungry and at risk are helped.
    Senator Bennett. Thank you very much for that. That's very 
encouraging and reassuring. Thank you, Mr. Chairman.
    Senator Kohl. We thank the first panel. You've all been 
terrific by way of what you've brought to us. Before we move 
onto the second panel, I'd like to ask Senator Cochran if he 
wishes to say a word.
    Senator Cochran. Mr. Chairman, thank you very much. I came 
by to compliment Mr. Morris on the great leadership he has 
provided to the World Food Programme. I had the opportunity to 
visit him, with him most recently in Rome where I've had the 
benefit of wide ranging discussion of the challenges that the 
agency has faced and the successes it's had in the years and 
also I have to say that Judy Lewis, a former member of my staff 
has been a source of information and inspiration too.
    Inspiring because of the challenges and dangers that people 
like her have faced all over the world in distributing food and 
making sure we save lives through our generosity and our 
commitment of our Congress to support these efforts and I'm 
confident that we'll continue to provide generous support for 
the World Food Programme.
    We thank you especially for bringing the witnesses you have 
today and keeping us up to date on the challenges that the 
World Food Programme faces. Thank you, Mr. Chairman.
    Senator Kohl. Thank you, Senator Cochran. Yes, Mr. Morris.
    Mr. Morris. If I could just respond to Senator Cochran. 
Thank you for your extraordinary support of us for so long, no 
way to say thank you adequately.
    I just want to conclude with a second or two to put in 
context what my two colleagues have told you. The World Food 
Programme, anytime there are more than 3,000 or 5,000 refugees 
in a country, we take on the responsibility for providing food 
for them. The good news is the number of refugees in the world 
has been decreasing yet we fed about 3 million refugees last 
year, something approaching 10 million internally displaced 
people. This would be 230,000 people from Darfur who have gone 
into Chad. This would be 150,000 Western Sahara refugees in 
Southern Algeria. This would be a huge number of refugees in 
Tanzania, the Congo, Rwanda, Burundi, the same in Sierra Leone, 
Siberia.
    The life of a refugee is extraordinarily difficult. The 
camp where Mohamed was living, the Dadaab, 220,000 people 
there, we provide food for 220,000 refugees and the feel good 
for you is that much of it comes from the United States through 
Food for Peace.
    So profoundly grateful to you as leaders of our country, 
profoundly grateful to the citizens of this extraordinary place 
we're fortunate to call home, the generosity, the caring, the 
ingenuity that has made the prosperity possible to have the 
food to work with. The fact of the matter is costs have gone up 
dramatically and the number of hungry people in an absolute 
notion have gone up substantially and we just all have to do 
more, as individuals, as a country. We have to solve this 
problem. It's at the base of making progress on the 
humanitarian agenda and we have the potential, the know-how, 
the wherewithal to do it. Thank you, sir.
    Senator Kohl. Mr. Morris, we couldn't agree more.
    Mr. Morris. Thank you.
    Senator Kohl. We thank the first panel. We appreciate you 
being here.
    Mr. Morris. Thank you.
    Senator Kohl. Our next panel includes Walter Middleton, 
World Vision International's Vice President for food resources 
management group.
    Mr. Middleton, we know you've come all the way from South 
Africa to be with us today and we thank you and we look forward 
to hearing from you.
    We're also grateful to recognize Ms. Cindy Brown from my 
home State of Wisconsin. Ms. Brown is a farmer and dry bean 
producer from Menomonie, Wisconsin. Ms. Brown is also President 
of the U.S. Dry Bean Council and we thank Ms. Brown for being 
here.
    Mr. Middleton, we'd be delighted to take your testimony.
STATEMENT OF WALTER MIDDLETON, VICE PRESIDENT, WORLD 
            VISION INTERNATIONAL
    Mr. Middleton. Mr. Chairman, thank you for this opportunity 
to testify before the subcommittee today. My name is Walter 
Middleton. I am World Vision Vice President for the food 
resource management group based in Johannesburg, South Africa.
    World Vision is a Christian humanitarian organization 
dedicated to helping children, families and their communities 
worldwide reach their full potential by tackling the causes of 
poverty and injustice.
    My testimony today is on behalf of World Vision and the 
other members of the alliance of Food Aid, which is comprised 
of 14 private, voluntary organizations that conduct food aid 
programs overseas.
    It is also a privilege as well to be here as well with Jim 
Morris. World Vision is one of the major partners with World 
Food Programme and is pleased to have endorsed the WFP UNICEF 
End Child Hunger Incentive.
    Mr. Chairman, we thank you and the subcommittee for your 
unrelenting support for food aid over the years. On a personal 
note I have a long history with food aid, when I was about 8 or 
9 years old, I attended primary school in a small railway town 
in Rajasthan, India. One day our principal announced that we 
would receive a daily snack donated by America. Even though the 
railway employed my father, we were poor. Most days I went to 
school only on a slice of bread and a cup of tea. The milk and 
porridge provided by the United States was a great blessing and 
that I will never forget.
    The school feeding programs in India lasted 20 years or 
more. After which many were taken over by local governments or 
associations. Private voluntary organizations implement 
emergency and developmental Public Law 480 title II programs 
through agreements with U.S. aid. We implement food for 
progress, agricultural development programs and McGovern-Dole 
food for education programs through agreements with USDA.
    In my written remarks I review several issues that are 
important conservations as you prepare the fiscal year 2008 
Food Aid appropriations. I would like to call your attention to 
three in particular.
    First, we ask the Committee to provide at least $1.6 
billion for the Public Law 480 title II program. If you look at 
the history of appropriations in recent years, this is the 
average appropriations for title II after supplemental 
appropriations are passed. Providing the funding at the 
beginning of the fiscal year, rather than piecemeal will allow 
better program planning and the orderly procurement and the 
delivery of commodities.
    Second, of sums appropriate for title II, we ask that $600 
million be made available for nonemergency developmental 
programs.
    And third, we ask the committee to provide at least 100 
million for the McGovern-Dole Food for Education and Child 
Nutrition Program which provides an incentive for poor and 
hungry families to send their children to school.
    I would like to explain why we seek $600 million for the 
title II nonemergency programs. Making a lasting impact on food 
security is a difficult task. Areas where poverty and hunger 
endemic are often buffeted by multiple setbacks such as 
droughts, floods, disease and war, therefore programs need to 
be tailored to local needs and given enough time, often 4 to 5 
years, to have a lasting impact.
    Title II allows PVOs to double up multi-year programs to 
improve food security, working in cooperation with local 
communities. They are called nonemergency programs and they 
give us the greatest chance to have a lasting impact.
    The law sets a minimum tonnage for title II nonemergency 
programs, however due to the loss of section 416, surplus 
commodities and budget pressures. In recent years most title II 
resources have been shifted to emergency needs, displacing 
longer term developmental programs.
    Nonemergency programs are being phased out in 17 countries 
and cutbacks in others and the amount provided has frozen at 
$350 million. We believe this is counterproductive as 
developmental food aid helps improve people's resilience to 
drought and economic downturns. Giving people the means to 
improve their life also provides hope for a better future and 
helps stabilize vulnerable areas.
    Let me give you an example of World Vision title II program 
in Kenya targeted 1,528 postulate families in the Tonkana 
region, an arid environment that is plagued by recurring 
droughts. Before our program, these families were dependent on 
emergency food aid yearly every year. Over a period of 6 years 
we used a combination of monetization and distribution. The 
funds generated from commodity sales supported food for work 
projects that improved irrigation and infrastructure, 
cultivation techniques and land management.
    As a result income increased from a baseline of $235 per 
year to $800 per year. Families could afford to send their 
children to school and the communities no longer depended on 
relief. In fact, the program was turned over to the 
participants and they have spread their knowledge to 475 farmer 
families.
    We were hoping to replicate the success for models in other 
areas of Kenya where postulates are still dependent on 
emergency rations yearly every year. However, U.S.A. is phasing 
out nonemergency projects in Kenya as part of a larger effort 
to limit the scope of developmental food aid programs. 
Meanwhile Kenya remains a recipient of emergency food aid.
    Report language in previous appropriations bill called on 
the Administration to meet the minimum tonnage for title II 
non-emergency programs. While we believe this might help stop 
the decline in non-emergency programs, it has not increased the 
availability of resources, thus we ask that of the sums 
available for title II, $600 million be made available for non-
emergency programs.
    I am one of the fortunate ones who received help through a 
U.S. food aid program, completed my education and advanced my 
career, first, at CARE and now at World Vision. The 
continuation and expansion of Food Aid programs will provide 
the opportunity for a healthy productive life to others.

                           PREPARED STATEMENT

    Hunger is a solvable problem. It has been my passion and 
career focus. Mr. Chairman, thank you for your support of these 
life giving programs. I would be pleased to answer any 
questions you may have.
    [The statement follows:]

                 Prepared Statement of Walter Middleton

    Mr. Chairman, thank you for this opportunity to testify before the 
Subcommittee today on U.S. food aid programs. My name is Walter 
Middleton, and I am World Vision International's Vice-President for the 
Food Resources Management Group based in Johannesburg, South Africa. My 
testimony is on behalf of World Vision and the other members of the 
Alliance for Food Aid, which is comprised of private voluntary 
organizations and cooperatives (jointly called ``PVOs'') that conduct 
international food assistance programs.\1\
---------------------------------------------------------------------------
    \1\ Adventist Development & Relief Agency International, ACDI/VOCA, 
Africare, American Red Cross, Counterpart International, Food for the 
Hungry International, Joint Aid Management, International Relief & 
Development, Land O'Lakes, OIC International, Partners for Development, 
Project Concern, United Methodist Committee on Relief & Development, 
and World Vision.
---------------------------------------------------------------------------
    World Vision is a Christian humanitarian organization dedicated to 
working with children, families, and their communities worldwide to 
reach their full potential by tackling the causes of poverty and 
injustice. Our overseas staff is familiar with and thankful for the 
work of this Subcommittee. Your efforts to provide adequate resources 
and to support developmental and humanitarian programs are humbling. We 
are most grateful.
    As practitioners, PVOs focus on identifying the needs of poor 
communities and working in concert with local organizations and 
institutions to make improvements in people's lives that will last for 
the long run. For example, World Vision's overseas staff is primarily 
indigenous. Over 90 percent of all World Vision staff work in the 
countries in which they are citizens. Thus, through our food aid and 
other programs we aim to build local capacity and leaders, making 
lasting behavioral and institutional changes.
    Making a lasting impact on food security is a difficult task and it 
often requires five or more years to ensure that changes take hold. 
Areas where poverty and hunger are endemic are often buffeted by 
multiple setbacks, such as droughts, floods, disease and war. In 
addition, when the economy of a developing country catches a cold, the 
poor people living in that country catch pneumonia. And when developing 
country governments institute regressive economic and social policies, 
more people fall under the poverty line and the poor suffer the most.
    As you consider funding for food aid in the fiscal year 2008 
appropriations bill, we seek your support for--
  --At least $1.6 billion for the Public Law 480 title II program, of 
        which $600 million shall be made available for implementation 
        of non-emergency programs, as required under title II of Public 
        Law 480 [section 204 of the Agricultural Trade Development and 
        Assistance Act of 1954, as amended].
  --At least $100,000,000 for the McGovern-Dole Food for Education and 
        Child Nutrition Program;
Personal Note on School Feeding Programs and Title II
    As a personal note, I have been associated with title II food for 
the past 46 or 47 years. I was about 8 or 9 years old when I first 
tasted title II food through my primary school in Phulera, a small 
Railway town in the State of Rajasthan, India. One fine day the 
Principal, Mrs. Allen informed the children that we were going to start 
receiving a snack at school every day as they had received food 
donations from ``Amereeka.''
    We had little at home, and for us this was a great blessing. Even 
though my father was employed by the railway, his monthly salary was 
not more than $35 per month. Most days I went to school on only a bland 
slice of bread and a cup of tea. The milk and porridge were a life line 
for those of us who sought education, but lived with hunger.
    After a few months of receiving the title II snacks, I became 
involved in its preparation and helped serve, entitling me to one extra 
cup of milk and small extra portion of porridge. Sometimes we would 
scrape the pots to get the last remains.
    As a reminder to all of us of the unplanned and additional benefits 
of food aid, I remember that 1 day I had the courage to ask Principal 
for the empty milk powder bags--the brown paper bags. I used it to put 
around the wire mesh of our poultry pen, providing protection for the 
winter months.
Public Law 480 Title II--the Core U.S. Food Aid Program
            Overall funding level
    Administered by the U.S. Agency for International Development 
(USAID), the title II program provides food aid donations for 
development programs and emergency needs through PVOs and the UN World 
Food Program. This is America's main contribution toward the Millennium 
Development Goal of cutting hunger in half by 2015. Just to maintain 
minimal levels of food intake in 70 needy countries monitored by the 
USDA Economic Research Service, annual worldwide food aid needs are 
15,200,000 metric tons (MT). The $1.6 billion title II program would 
provide almost 20 percent of these annual needs.
    Public Law 480 title II focuses on eliminating hunger and its 
causes through a variety of programs that are developed in cooperation 
and collaboration with local organizations, institutions and 
governments. The emphasis is on ``non-emergency'' programs that improve 
the food security of recipients in the long run--not just short-term 
emergency response. From 1999 through 2002, most emergency food aid was 
provided through the Section 416 surplus commodity program, allowing 
title II to focus on its primary developmental goals. However, as the 
attached funding chart shows, availability of Section 416 surplus 
commodities has diminished since 2001. While title II funding has been 
increased since fiscal year 2001, this increase is insufficient to make 
up for the loss of Section 416 and cannot maintain adequate levels for 
both emergency and non-emergency requirements.
    Because Title II funding levels have not kept pace, there have been 
cutbacks in developmental food aid programs and increased reliance on 
supplemental appropriations to fill gaps in emergencies. Providing 
adequate funding in the regular appropriations process would allow the 
orderly planning and delivery of commodities throughout the year, 
without program disruptions. Moreover, commodity prices are escalating 
and with straight-lined budgets, this makes it even harder to maintain 
food aid levels.
    We also support efforts to assure continuation and completion of 
the food aid product quality and enhancement project, which was 
authorized in the 2002 Farm Bill. Ensuring that products we deliver are 
safe and appropriate is important, particularly for vulnerable groups 
such as children under the age of two, women of child-bearing age and 
people living with HIV/AIDS. Formulations for the value-added products 
targeted for these groups have been static for decades and food aid 
distribution overseas has sometimes been disrupted due to quality 
concerns.
Non-Emergency Funding Level
    A consequence of trying to provide all emergency food aid out of 
the title II budget is a reduction in non-emergency food aid programs--
both the funding level and the number of eligible countries. Section 
204 of title II states that 1,875,000 MT of title II commodities shall 
be made available for non-emergency programs, which are multi-year 
programs that address underlying causes of chronic hunger and 
vulnerability. They include mother-child health care, agricultural and 
rural development, food as payment for work on community infrastructure 
projects, school meals and take home rations as incentives for poor 
families to send children to school, and programs targeting HIV/AIDS-
affected communities. Chronic hunger leads to high infant and child 
mortality and morbidity, poor physical and cognitive development, low 
productivity, high susceptibility to disease, and premature death.
    The non-emergency minimum tonnage level can be waived by the 
Administration after the start of the fiscal year if there are 
insufficient requests for these programs, or if there are extraordinary 
emergency needs. However, this waiver is assumed before the beginning 
of the fiscal year and the Administration does not seek proposals for 
programs to meet the 1,875,000 MT requirement. Instead, USAID has 
limited the non-emergency programs to about 700,000-750,000 MT, or $350 
million for the cost of commodities, ocean freight, delivery costs 
(called internal transportation, storage and handling, or ``ITSH'') and 
related support costs (called ``section 202(e) funds''). This downward 
trend must be stopped or Public Law 480 will lose its most important 
objective: to promote food security in the developing world.
    Concentrating food aid resources in areas where there is high 
prevalence of food insecurity and vulnerability is appropriate and is 
also anticipated in the USAID Food for Peace Strategic Plan, 2006-2010. 
However, USAID's decision in 2006 to reduce the number of countries 
covered by title II multi-year non-emergency assistance from 32 to 15 
was budget driven and eliminated too many areas where chronic hunger is 
prevalent and was driven by the decision to reduce the budget for non-
emergency programs. Many poor, vulnerable populations will be excluded 
from receiving food aid, even though their needs are as compelling as 
those populations that will be served.
    The capacity of PVOs to serve populations in non-eligible countries 
will be lost, making it more difficult to respond effectively at the 
early signs of an emerging food crisis, which runs counter to the 
intent of the Strategic Plan. As more programs are pushed into fewer 
countries, areas within priority countries may be targeted that are 
less food insecure than areas in non-selected countries.
    We thank the Committee for supporting report language in 
appropriations bills emphasizing the importance of the non-emergency 
programs and the need for the Administration to take steps to meet the 
section 204-tonnage level. Unfortunately, this has had no perceivable 
effect on the management of programs. Therefore, we seek a specific 
level in the bill for title II non-emergency programs. Ramping up non-
emergency programs to the level required by law will take more than one 
year. Requiring the Administration to make $600 million available in 
fiscal year 2008 would be a step in the right direction, increasing the 
amount provided to about 1,100,000 to 1,200,000 MT.
Link Between Title II and the Bill Emerson Humanitarian Trust
    Administered by USDA, the funds and commodities in the Bill Emerson 
Humanitarian Trust (BEHT) are needed to supplement Public Law 480 title 
II when there are urgent humanitarian food aid needs. The commodities 
are provided by the Trust and CCC covers the ocean freight and delivery 
costs. The Trust can hold up to 4 million MT or cash equivalent, but 
currently only holds about 900,000 MT of wheat and $107,000,000 (which 
is available to buy commodities when needed). The BEHT has two 
weaknesses that need to be addressed so it can more effectively serve 
as a contingency fund for emergencies: the ``trigger'' for releasing 
commodities and the level of reimbursement.
    First, the commodities and funds in the Trust should be made 
available for emergencies before the title II minimum tonnage for non-
emergency programs is waived. Otherwise, as we have seen in recent 
years, there is disruption to and depletion of resources for 
developmental title II programs. Second, a method for regular and 
higher levels of replenishment is needed. Currently, up to $20 million 
of Public Law 480 reimbursement funds in any one year may be used to 
replenish the BEHT. We thank this Committee for ensuring that no more 
than the $20 million is reimbursed in any fiscal year and requiring 
these funds to be deposited into the Trust as replenishment. However, 
$20 million per year is not sufficient to refill the Trust and higher 
levels of reimbursement are needed on a regular basis.
Monetization
    Monetization is an important component of food aid programs, and we 
support its continued use where appropriate, based on market analysis 
and a coherent strategy to strengthen food security. Monetization is 
the sale of commodities in net food-importing, developing countries and 
the use of proceeds in projects that improve local food security. It 
can have multiple benefits and is appropriate for low-income countries 
that must depend on imports to meet their nutritional needs. Limited 
liquidity or limited access to credit for international purchases can 
make it difficult for traders in these countries to import adequate 
amounts of foodstuffs and amortization is particularly helpful in such 
cases. Amortization can also be an effective vehicle to increase small-
scale trader participation in the local market and financial systems, 
can be used to address structural market inefficiencies, and can help 
control urban market price spikes. In all cases, the proceeds are used 
to support food security efforts or the delivery of food in the 
recipient country.
Administration's Request for Local/Regional Purchase for Emergencies
    In-kind food aid continues to be the most dependable and important 
source of food aid. The commitment of commodities sourced directly from 
donor countries, which have more than adequate production to meet their 
domestic needs, is required to ensure that sufficient levels food aid 
are available each year. However, there are situations in which 
purchases closer to the area of need could provide more timely 
response, diversity of the food basket, and benefits to local 
agricultural development.
    While PVOs have experience using privately-raised funds and, to a 
limited degree, USAID International Disaster and Famine Assistance 
account funds for local purchases, information from these programs has 
not been systematically collected and therefore is inadequate to use 
for developing appropriate methodologies and best practices for future 
programs. Thus, as part of the 2007 Farm Bill we are recommending a 
field-based, pilot program for local purchases for famine prevention 
and relief--
  --Within recipient countries or nearby low-income countries,
  --In cases where the procurement is likely to expedite the provision 
        of food aid,
  --Where the procurement will support or advance local agricultural 
        production and marketing, and
  --Conducted by PVO implementing partners that have experience with 
        food aid programming in the recipient countries.
    To ensure that accepted practices for food aid programs are 
followed and to identify appropriate methodologies and best practices 
for future programs, each PVO implementing a pilot program shall--
  --Prior to implementing a local purchase program, conduct an analysis 
        of the potential impact of the purchase on the agricultural 
        production, pricing and marketing of the same and similar 
        commodities in the country and localities where the purchase 
        will take place and where the food will be delivered;
  --Incorporate food quality and safety assurance measures and analyze 
        and report on the ability to provide such assurances;
  --Collect sufficient data to analyze the ability to procure, package 
        and deliver the food aid in a timely manner;
  --Collect sufficient data to determine the full cost of procurement, 
        delivery and administration; and
  --Monitor, analyze and report on the agricultural production, 
        marketing and price impact of the local/regional purchases.
McGovern-Dole Food for Education
    The McGovern-Dole Program provides incentives for poor families to 
send their children to school. Requiring an appropriation of no less 
than $100,000,000 each year will give certainty that funds are 
available for multi-year programs. These types of programs used to be 
included in title II, but with the establishment of McGovern-Dole in 
2002, such programs under title II are being phased out. Increased 
funding would allow more multi-year programs, which would improve 
program impact, and would allow broader use of the authority in the law 
to support both educational programs and programs for children under 
the age of five, which is when malnutrition can have its most 
devastating impact on child development.
Loss of Title I Funds Impacts Food for Progress
    The Food for Progress Act directs USDA through the Commodity Credit 
Corporation (CCC) to provide a minimum of 400,000 metric tons of 
commodities each year to developing countries that are introducing 
market reforms and supporting private sector development. These 
programs may be implemented by PVOs, the World Food Program and 
recipient country governments. The amount actually provided through CCC 
falls short of 400,000 metric tons because there is a cap on amount of 
funds that CCC can provide for delivering the commodities and 
administering the programs overseas. USDA has authority to use Public 
Law 480 title I funds in addition to the CCC funds to implement Food 
for Progress programs. In fiscal year 2006, about 75 percent of title I 
funds were used for this purpose. This has augmented CCC funding and 
allowed the program to reach 500,000 MT. As no funds were appropriated 
for title I in fiscal year 2007, and the Administration seeks no 
funding in fiscal year 2008, this means a cut in funding for Food for 
Progress programs.
    Many poor, developing countries are undergoing economic reform and, 
therefore, the demand for Food for Progress programs is great. Forty-
six different PVOs apply for Food for Progress programs. For fiscal 
year 2007, 100 proposals were submitted by PVOs and 16 by governments, 
but only 11 new proposals were approved and 3 other programs were 
provided second year funding. We will seek additional funding through 
CCC as part of the Farm Bill to ensure that a minimum of 500,000 MT 
will be available each fiscal year and emphasizing the importance of 
providing assistance through PVOs.
    PVOs implement Food for Progress programs in partnership with local 
communities, cooperatives and agricultural associations, increasing 
American visibility and assistance among the rural poor in countries 
that are transitioning to market-based systems. Food for Progress 
programs have been innovative, improving and expanding food processing, 
internal trade of processed products, livestock health and production, 
and creating agricultural financing mechanisms. While each program is 
fairly small, they introduce methodologies that can be adopted more 
broadly and provide a base for further growth and development of 
private cooperatives, farmer associations, farm credit, and local 
agricultural and fisheries related businesses.
Conclusion
    In conclusion, Mr. Chairman, I am one of the fortunate ones, who 
received help through a U.S. food aid program, completed my education 
and advanced in my career first working for CARE and now as a Vice 
President for World Vision. I can see the many benefits U.S. food aid 
programs are creating for poor communities, improving incomes, living 
conditions and nutrition and sowing the seeds for a promising future. 
Along with my colleagues at World Vision and other PVOs, I deeply wish 
to see the continuation and expansion of food aid programs so the 
opportunity for a healthy, productive life can be offered to others.
    Mr. Chairman, thank you for supporting these life-saving and life-
giving programs. Attached are a few examples of the programs PVOs 
implement and the results. I would be pleased to answer any questions 
you may have.

                           PUBLIC LAW 480 TITLE II: APPROPRIATIONS COMPARED TO ACTUAL EXPENDITURES IN U.S. DOLLARS AND SECTION 416 EXPENDITURES FISCAL YEAR 2001-2008
                                                                                   [Updated: February 5, 2007]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                                                             Fiscal year 2007   Fiscal year 2008
                                           Fiscal year 2001   Fiscal year 2002   Fiscal year 2003   Fiscal year 2004   Fiscal year 2005   Fiscal year 2006        (est.)        (admin. request)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Title II Appropriations.................       $835,200,000       $945,000,000  \1\ $1,809,575,00     $1,185,000,000  \1\ $1,415,000,00  \1\ $1,632,000,00  \2\ $1,595,000,00     $1,219,000,000
                                                                                                0                                     0                  0                  0
Title II Actual Program Level \3\.......        925,900,000      1,039,100,000      1,881,000,000      1,670,100,100      1,668,000,000      1,773,000,000      1,655,000,000  .................
Sec 416(b) \4\..........................      1,103,000,000        773,000,000        213,000,000        173,000,000        147,000,000         20,000,000  .................  .................
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2003 includes supplemental of $369 million; fiscal year 2005 includes supplemental of $240 million; fiscal year 2006 includes supplemental of $350 million.
\2\ Fiscal year 2007 Final Continuing Appropriations of $1,215,000,000 and assumes fiscal year 2007 Supplemental Appropriations request of $350,000,000.
\3\ Actual levels include appropriations, maritime reimbursement and carry-in funds and represent the amount actually reported as expended by USAID.
\4\ Section 416(b) is funded through the Commodity Credit Corporation and is not subject to fiscal year appropriations. It is shown because until fiscal year 2003, the commodities were often
  used for emergencies, supplementing title II funding.


    Senator Kohl. Thank you, Mr. Middleton. Ms. Brown.
STATEMENT OF CYNTHIA A. BROWN, ON BEHALF OF THE U.S. 
            DRY BEAN COUNCIL
    Ms. Brown. Thank you, Mr. Chairman and members of the 
subcommittee. I appreciate the opportunity to be here today and 
my purpose in testifying is to support the continuation of in-
kind.
    Senator Kohl. Is your?
    Ms. Brown. Maybe I just need to bring it closer, there we 
go, I'm sorry.
    My purpose in testifying is to support the continuation of 
in-kind U.S. commodity donations and to oppose transferring 
scarce program funds to overseas purchasing, to support 
maintaining the structure and delivery of existing food aid 
programs and to ask for funding levels that will maintain 
historical tonnage volumes.
    I am the President of the U.S. Dry Bean Council which is 
the trade association representing farmers, processors and 
canners and all others involved in the U.S. dry bean industry 
and prior to having that position I had the opportunity to 
chair the Food Aid Committee for the U.S. Dry Bean Council and 
in that capacity I worked with all the partners within the food 
aid community from growers to government program administrators 
to PVOs in the field and I had the opportunity to visit various 
food aid programs throughout the world and of all of the 
programs that I saw, school feeding had the greatest impact 
upon me.
    Growing up in a household where my mom was a teacher and my 
dad, a farmer, helped me understand the importance of both food 
and education. By providing a meal in school we help fight 
hunger and give children a chance at an education which we know 
is the key to breaking out of poverty and which we've heard a 
lot about today.
    By using United States in-kind commodities in these school 
feeding programs we multiply the value of those commodities 
many times over because again, as we've heard, the benefits of 
school feeding go beyond fighting hunger and promoting 
education.
    Over the last few years the administration has proposed in 
one form or another, the aspect of transferring scarce 
resources to overseas purchases and I'm very opposed to the 
elimination of 25 percent of title II funding for that reason.
    We don't know the consequences of all of the overseas 
purchases. We haven't seen them studied enough. We don't know 
about restriction of local supplies, about market prices going 
up and about other people having enough money to buy food, the 
normal people that would buy food in that market. So we're very 
concerned about that and we're concerned that this proposal is 
unlikely to feed more hungry people.
    I brought along a prop. This is the bag that we use to pack 
our dark red kidney beans in when we put them into the Food Aid 
Program. That bag represents the pride of our American 
taxpaying public, our farmers and agribusiness. The food in 
that bag and our country's name on it is what food aid means to 
most Americans. It represents our commitment to sharing our own 
good will and fortune with our very less fortunate neighbors.
    When dollars are substituted for food the donation is no 
longer food aid, it's foreign aid and our public support will 
diminish. There is not a one to one tradeoff for cashing out 
food aid.
    Now we can't argue that the current system might have some 
inefficiencies, but it seems to make sense that we could fix 
this delivery system and make it work better because again, if 
we substitute dollars for U.S. commodities, we will lose the 
resources.
    We need to heed the lessons of what's happened in Europe. 
Ever since they switched to cash, they've been donating far 
less to fight hunger and their budget has dropped quite 
dramatically. Our annual donations exceed the donations of all 
other countries combined and it's important for us to make sure 
that we meet our historical obligation in providing food to the 
world's less fortunate.
    In summary I would like to ask for this committee's 
continued support on in-kind food commodities from the United 
States and to oppose the cashing out of food aid dollars. To 
make sure adequate funding is available to support the title II 
budget and maybe consider raising it to $2 billion a year, 
given all the things that we've heard today about the ongoing 
need within the world, that's not out of the question when we 
look at what the United States should be capable of doing.

                           PREPARED STATEMENT

    I also think that McGovern-Dole is such an important 
program and has been so successful that we might consider 
taking it up to $300 million as it was originally proposed.
    One final comment, I know that budgets are limited and I 
know that resources have to come from one spot or another but 
on the basis of taking care of hungry people, I think we could 
spend less on homeland security if we made sure that we reached 
the people overseas and they weren't so concerned about being 
hungry all the time. Thank you.
    [The statement follows:]

                 Prepared Statement of Cynthia A. Brown

    Mr. Chairman, and Members of the Subcommittee. My name is Cynthia 
Brown. I am a farmer, processor, and a dry bean dealer from Menomonie, 
Wisconsin. I appreciate the opportunity to testify and to submit this 
statement for the record of this hearing regarding our international 
food assistance efforts.
    My purpose in testifying is to strongly support continuation of 
time-tested and effective in-kind United States produced commodity 
donations; to strongly oppose the ill-conceived proposals that would 
diminish our present programs by transferring scarce program funds for 
the purpose of overseas commodity purchasing; to strongly support 
maintaining the structure and delivery of our existing food aid 
programs; and to ask that they be funded at levels, which, at a 
minimum, will maintain historical tonnage volumes.
    By way of personal background, I am proud to note that my family 
has continuously farmed on our land in Menomonie since 1858. We 
presently farm about 4,000 acres, of which about 3,300 acres are 
devoted to dry bean production. My family started growing dry beans in 
the late 1960s, and has operated the Chippewa Valley Bean Company since 
the early 1970s. Chippewa Valley Bean Company processes dry beans, 
primarily kidney beans, and sells dry beans in both the domestic and 
international markets. We have been a supplier of dry beans to our 
international food assistance programs for a number of years.
    Also, I currently serve as President of the U.S. Dry Bean Council, 
the trade association representing farmers, processors, canners, 
dealers, distributors, and others involved with all aspects of growing, 
processing, marketing, and distributing of dry beans produced in the 
United States. USDBC is composed of state and regional grower and 
dealer associations from all major U.S. production areas, as well as 
individual companies involved in all aspects of the domestic dry bean 
industry. I should note that about 20 different classes of dry beans 
are grown in the United States, including pinto, navy, kidneys, black, 
great northern, small red, pink, lima, and other dry beans in about 20 
States, including Wisconsin. In 2005, USDA statistics indicated that 
harvested U.S. dry bean acreage was nearly 1.57 million acres, 
producing about 1.37 million tons of dry beans. And, about 30 percent 
of annual U.S. dry bean production is exported with major importing 
countries being Mexico, the UK, and Japan.
    I also serve as the Delegate to USDBC from the North Central Bean 
Dealers Association, and as a Member, appointed by Governor Doyle, of 
the Citizen's Advisory Board of the Wisconsin Department of 
Agriculture, Trade, and Consumer Protection.
    Mr. Chairman, I am pleased to have this opportunity to present 
views on our international food assistance programs, from the joint 
perspective of a grower, processor, and shipper of dry beans. I take 
today's testimony very seriously because international food aid is a 
personal passion and commitment of mine. Prior to my current service as 
President of USDBC, I served for a number of years as Chair of the 
USDBC Food Aid Committee. hi that capacity and since, I have had the 
privilege to work with all partners that make up our humanitarian food 
aid delivery system--from the grower through the government program 
administrators to the private voluntary and other organizations that 
deliver our lifesaving and life-sustaining commodities to recipients 
around the world. As such, I have traveled to Haiti, South Africa, 
Ghana, Ethiopia and Kenya and have seen U.S. commodities being 
distributed in a number of PVO programs ranging from food for work to 
school feeding.
    School feeding programs have had the greatest impact on me. Growing 
up in a household where my mom was a teacher and my dad a farmer helped 
me understand the importance of both food and education. By providing a 
meal in school, we help fight hunger and give children a chance at an 
education--which is the key to breaking out of poverty.
    Over 300 million children in the world suffer from hunger. Over 100 
million of these children, most of them girls, do not attend school. 
School feeding programs provide food directly to children suffering 
from hunger. Many times a free meal in school is the only reason that 
parents send their children to school. This is especially true for 
girls. When school feeding is available, enrollment and attendance 
rates increase significantly; students stay in school longer and 
perform better. Girls that have the opportunity to come to school have 
fewer children, have them later in life and make sure their children 
receive an education.
    The benefits of school feeding programs go beyond fighting hunger 
and promoting education. By bringing more children into the classroom, 
school feeding also helps expand the reach of a number of other 
programs. For example, more children and their families can receive 
education on HIV/AIDS prevention and proper nutrition. By using U.S. 
commodities in school feeding programs, we've multiplied the value of 
those commodities many times over.
Continue In-Kind Commodity Donations
    Mr. Chairman, I would initially like to address two food aid issues 
that have received a lot of attention recently. First, is the matter of 
in-kind commodity donations for food aid. We know that there are those, 
particularly the European Union and certain international 
organizations, who have advocated that the United States move away from 
in-kind food aid donations. These critics allege that in-kind food aid 
is inefficient and can lead to wasting food aid resources, and they 
propose using cash only for local purchasing to recipients. While 
seemingly well-intended, such views. are misguided, have not been 
clearly demonstrated in practice, and have great potential for 
diminishing the effectiveness and scope of our food aid programs. 
Though much of this advocacy has been emotionally driven, a very 
thoughtful and comprehensive study of cash versus in-kind food aid was 
recently conducted by Dr. Joel Toppen. In his resulting paper he 
concluded ``Because the proposed policy shift would likely result in 
significantly fewer food aid dollars due to a loss of political 
support, there is little if any reason to expect more hungry people to 
be fed and/or long-term food security to be enhanced. While local and 
regional purchase can often bring cost savings, the contention that a 
U.S. shift to cash-based food aid would actually increase the amount of 
resources transferred to food-insecure populations rests on wishful 
thinking, not sound social science.'' Moreover, Toppen observed that 
the PVO community is not generally supportive of this radical change in 
food aid programming by noting the position of the Alliance for Food 
Aid, a major PVO coalition, when he stated ``Meanwhile, the AFA 
observes that food aid needs are immense and not likely to decrease any 
time soon and contends that to address those needs, `In-kind food aid 
continues to be the most dependable and important source of food aid' 
(AFA 2006).'' (Toppen, Joel J. (2006). Should the U.S. End In Kind Food 
Aid? Assessing the Case for Cash. Hope College, Holland, MI.).
    Further, in some instances, such as the ongoing WTO negotiations, 
it Would appear elimination of in-kind food aid donation is advocated 
for purposes of negotiating strategy, rather than for improving 
international food aid. Indeed, it is ironic that the European Union 
has been the major advocate for replacing in-kind commodity donations 
with cash, especially since the EU's ``cashing out'' of its 
international food aid commitment has resulted in a sharp drop in 
tonnage attributed to it in such food aid. Recipients have been the big 
losers as a result--a circumstance we do not want to replicate with the 
U.S. continuing food aid program commitment.
    In-kind commodity donations have been at the core of our very 
successful food aid programs since their inception. Historically and to 
this day, we have an unmatched agricultural bounty that, through the 
hard work of the American farmer and related agribusinesses, and the 
generosity of the American taxpayer, has literally fed much of the 
world's hungry, and its victims of natural disasters and other 
emergency situations. Humanitarian donation of U.S. grown, processed, 
and inspected agricultural products have insured that safe and uniform 
foodstuffs reach disaster victims, refugees, and recipients in ongoing 
programs, such as mothers, children, and the elderly. Annual commodity 
availability determinations by USDA and in-country determinations to 
avoid commercial displacement insure that little, if any, commercial 
market impact occurs due to the use of U.S. grown and processed 
agricultural products for in-kind humanitarian donation. Farmers, 
processors, shippers, and the taxpaying public have long strongly 
supported the United States being the leader in international 
humanitarian food aid, in large part because of the visability of our 
in-kind donations. There is something comforting in seeing the. U.S. 
marking on our in-kind commodity donations and knowing that it 
represents delivery of both safe and wholesome food and our commitment 
as a people to sharing our general wellbeing with our less fortunate 
world neighbors.
    As a consequence, U.S. farmers, processors, shippers, and 
taxpayers, continue to strongly support our in-kind commodity 
donations. Congress has reflected this support through the years, and 
we would request that the subcommittee continue this support by 
requiring that funding provided be utilized to maintain the in-kind 
commodity donation character of our international food aid programs.
Resist Transfer of Scare Food Aid Resources for Overseas Purchasing
    In the last few years, a most disturbing matter to U.S. farmers, 
processors, shippers, and others who are committed to the continued 
success of our international humanitarian food aid programs, has been 
several Administration proposals to transfer or utilize significant 
amounts of the Public Law 480 title II budget for purchasing 
commodities overseas for program use. In their various forms, the 
proposals would take a percentage (as much as 25 percent) or a dollar 
amount (as much as $300 million) of the appropriated title II annual 
budget and devote it to overseas purchasing. In past years, Congress 
has wisely rejected out of hand such proposals. This year, the budget 
proposal again proposes to allow the AID Administrator unfettered 
discretion to use up to 25 percent of title II dollars to buy program 
commodities overseas. This latest attempt to use scarce food aid funds 
for purchasing overseas remains unsubstantiated, is ill-advised, and 
should again be summarily rejected by Congress. Although, I can only 
speak for myself, I believe it would be fair to say that there is near 
unanimous opposition among farmers, processors, and shippers to this 
year's variation on this proposal. Among the many reasons to strongly 
oppose this proposal are:
  --First and foremost, as a number of commodity and processor groups 
        (including the U.S. Dry Bean Council) recently stated in a 
        joint letter to Congress urging reauthorization of our current 
        food aid programs, ``We believe that U.S. food aid funds, 
        provided by the American taxpayer, should purchase only U.S.-
        produced commodities for the nation's food aid programs. 
        Therefore, we do not support the use of Public Law 480 title II 
        funds for local commodity purchases overseas.''
  --There is a basic question whether, in the absence of statutory 
        amendment, title II program funds can legally be used to 
        procure for program donation an ``agricultural commodity'' that 
        has not been produced in the United States. Throughout the 
        title II statute, authority is provided to use and donate an 
        ``agricultural commodity'' for the specific humanitarian 
        purposes of the program. Yet, and appropriately so, 
        ``agricultural commodity'' is defined to be ``any agricultural 
        commodity or the products thereof produced in the United States 
        . . .''. (7 CFR 1732(2)). The meaning of the statutory language 
        is clear and unambiguous. So clear that general waiver 
        authorities of the statute or justifications based on 
        emergencies should not be allowed to override the language. The 
        subcommittee should resist providing any appropriated funds for 
        overseas commodity purchases, based on the lack of specific 
        authority for such purchasing in the Title II statute.
  --As discussed earlier, Title II resources are already inadequate to 
        meet normal emergency and non-emergency needs of the program. 
        Title II can ill afford a transfer of 25 percent of total 
        annual funds for AID discretionary spending.
  --AID has not made a case with sufficient evidence that justifies the 
        proposed overseas purchasing. In the past, AID has utilized 
        funding from its own accounts to make overseas commodity 
        purchases for limited time periods. Rather than decimate base 
        funding for the Title II program, AID should first set out the 
        need for, and circumstances under which, overseas commodity 
        purchasing would only be utilized, and then propose funding in 
        its own budget for that limited purpose.
  --Traditional Title II in-kind delivery of U.S. commodities can be 
        made in a timely fashion, accommodating most circumstances. 
        When conditions warrant, government agencies can also invoke 
        expedited tendering and shipping procedures that in many 
        instances can cut delivery times in half. USDA and AID have 
        effectively and efficiently diverted commodities that are in 
        route for other programs to destinations where emergencies have 
        arisen. AID' s implementation of ``prepositioning'' commodities 
        in strategic locations, both in the United States and overseas, 
        has developed a stockpile of foodstuffs that can be rapidly 
        sent to emergency destinations. Efforts should be undertaken to 
        expand prepositioning, both in terms of locations and volume of 
        tonnage stored, and to invoke other appropriate actions and 
        procedures when expedited commodity delivery is required.
  --The consequences of overseas purchasing have largely been ignored 
        and/or not analyzed. Local overseas commodity purchasing 
        presumes that sufficient commodities exist to be purchased. 
        Yet, that logic seems counter intuitive. Rather, it would seem 
        that such purchases would likely cause hording, further 
        restrict scarce local commodity supplies, and cause price run 
        ups and other market disruptions for the remaining commodity 
        supply. Such results may occur locally, may be felt in 
        different areas within a country, or may cause regional 
        disruptions. Indeed, commentary from a representative of a 
        major commodity trading company at a public session of last 
        year's USDA/AID international food aid conference indicated 
        that these types of targeted local purchasing had caused major 
        commodity supply shortages and excessive price increases that 
        distorted commercial markets on a regional basis in Africa.
  --Overseas commodity purchasing runs the distinct risk of turning our 
        accepted and widely supported international food aid programs 
        into just another form of just as widely unaccepted ``foreign 
        aid''. Taxpayer acceptance, as well as support of many Members 
        of Congress, can be traced to our highly visable and understood 
        in-kind commodity food aid programs. The same can not be said 
        generally for many taxpayers or many Members of Congress when 
        it comes to ``foreign aid''. As an individual who is personally 
        passionately committed to the continued success of our 
        international food aid programs, I fear that implementing the 
        overseas commodity purchasing proposal would be the first step 
        in the demise of this very effective and very valuable program.
  --Beyond erosion of general taxpayer support, overseas commodity 
        purchasing would greatly diminish support for these food aid 
        programs among farmers, processors, and shippers, and other 
        active program participants. Rightly viewed as a form of 
        ``cashing out'' of the program, such loss of support would 
        likely result in much lower program funding levels over time.
Maintain Present Food Aid Programs at Effective Levels
    The United States has long been the world leader in providing 
international humanitarian food assistance. Typically, U.S. commodity 
donations under the 1954 Food for Peace legislation and our other food 
aid programs annually exceed donations of all other donor countries 
combined. This commitment, in the form of annual U.S. produced 
commodity donations under Public Law 480 Titles I and II, Food for 
Progress, the McGovern/Dole Food for Education Program, and Section 
4.16(b), is a source of pride to the American farmer and agribusiness 
community who are able to see the good our agricultural abundance 
provides in emergencies and to the chronically hungry of the world. 
Unfortunately, contrary to well intentioned goals set by international 
agencies, estimates of the number of starving and chronically hungry 
populations in the world have continued to rise in recent years. At the 
same time, we have seen overall U.S. food aid tonnage declining, for 
example, from nearly 6 million, tons in fiscal year 2002 to less than 4 
million tons in the past fiscal year. Further, non-commodity costs of 
the food aid programs have risen significantly in recent years, and we 
fully expect that commodity costs across the board will continue to see 
a substantial increase this year. And, given a largely static funding 
level for our collective food aid programs in recent years, even when 
emergency supplemental food aid funding has been included in most 
years, we are left with erosion in the volume of donated commodities 
and reductions in the number of programs that can participate in our 
food aid efforts.
    Given this situation, it is most important for Congress, through 
its Appropriations Committees, to take the lead in addressing this 
matter to see that adequate funding is available so that these 
outstanding U.S. food aid programs can continue to operate at levels 
that insure that we meet our historical obligation in providing food to 
the world's less fortunate. Although, it is recognized that the budget 
is tight, these humanitarian programs are so important that they should 
be acknowledged as a budget priority to insure that adequate funding is 
provided to them to secure annual minimum tonnage donations. The recent 
shortage of food aid program budgetary resources, and its reduced level 
of commodity tonnage available for donation, has disrupted our ability 
to adequately provide for emergencies, while maintaining multiyear non-
emergency programs. These shortages have, unfortunately, resulted in 
having to choose between meeting commodity needs for emergencies, or 
for continuing successful non-emergency food aid programs that have 
been in existence for years. Certainty of an annual minimum tonnage 
availability would allow for greater forseeability and continuity in 
maintaining valuable non-emergency programming. In an effort to achieve 
this goal, it is respectfully requested that the subcommittee consider:
  --Maintaining flexibility in funding provided under Public Law 480, 
        Title I, so that maximum utility can be achieved by allowing 
        transfer of unutilized funds to Food for Progress for 
        programming;
  --Establishing annual Title II funding at a level that is predictable 
        and sufficient enough to address needs for both emergencies and 
        non-emergencies--a level of $2 billion has been advocated by 
        PVOs and other thoughtful food aid stakeholders, and I would 
        urge the Subcommittee to give serious consideration to 
        establishing it as the annual Title II funding floor;
  --Maintaining Food for Progress allocations at least at current 
        levels--in this regard, it is recommended that the 
        Administrations proposal to decrease FFP funds by an amount 
        projected to be transferred from Title I be rejected;
  --Strengthening the McGovern/Dole Food for Education program. It has 
        been a huge success, and certainly should be funded at least at 
        its present level ($100 million), and every effort should be 
        made to increase its funding to the $300 million level 
        originally envisioned at the program's inception; and
  --Funding provided under Title II should be sufficient to meet all 
        statutory annual minimum tonnage requirements, i.e. the general 
        overall annual minimum requirement of 2.5 million metric tons, 
        the non-emergency programs subminimum tonnage requirement of 
        1.875 million metric tons, and the value-added requirement that 
        75 percent of non-emergency annual tonnage be in the form of 
        processed, bagged and fortified commodities.
    Mr. Chairman, in sum I commend the subcommittee for holding this 
hearing to address the important issues facing our international food 
aid programs. Again, I ask the subcommittee to strongly support 
continuation of in-kind U.S. produced commodity donations; to strongly 
oppose ill-conceived proposals that would undermine our present 
programs by transferring scarce program funds for the purpose of 
overseas commodity purchasing; to continue your strong support for 
maintaining the structure and delivery of our existing food aid 
programs; and to fund the programs at levels which will maintain 
minimum historical tonnage volumes.
    Attached to my testimony are copies of the commodity and processor 
letter to Congress on food aid programs reauthorization that I referred 
to earlier, and the current food aid position paper adopted by the U.S. 
Dry Bean Council. I ask that they be included as a part of the record 
with my testimony.
    Thank you for the opportunity to testify.
                                 ______
                                 
                      letter from cynthia a. brown
                                                    March 13, 2007.
Hon. Tom Harkin,
Chairman, Agriculture, Nutrition and Forestry Committee, U.S. Senate, 
        Washington, DC 20510.
    Dear Senator Harkin: As you proceed with your Farm Bill 
discussions, we bring to your attention the U.S. Public Law 480 Title 
I, Public Law 480 Title II, McGovern-Dole Food for Education, Food for 
Progress, and the Bill Emerson Humanitarian Trust food aid programs. 
Serving as a compassionate bridge between the United States and 
developing countries, the safe and nutritious U.S. food provided to 
starving populations abroad through these programs is a source of pride 
to American farmers, food processors, and agribusinesses.
    We believe that U.S. food aid funds, provided by the American 
taxpayer, should purchase only U.S.-produced commodities for the 
Nation's food aid programs. Therefore, we do not support the use of 
Public Law 480 Title II funds for local commodity purchases overseas.
    In light of the importance of these humanitarian U.S. food aid 
programs to their recipients overseas and to the U.S. agricultural 
community, we request Congress to:
  --Reauthorize Public Law 480 Title I.--This government-to-government 
        program provides U.S. agricultural commodities to developing 
        countries on credit or grant terms. Concessional credit sales 
        are available to those eligible countries that choose to 
        participate in them for food aid purposes. In addition, Title I 
        funds are a major funding source for Food for Progress, which 
        is discussed more below.
  --Reauthorize Public Law 480 Title II.--This program provides for the 
        donation of U.S. agricultural commodities to meet emergency and 
        non-emergency food needs in other countries, including support 
        for food security goals. We support a program that is 
        predictable and sufficient to address growing global needs for 
        both emergencies and non-emergencies.
  --Reauthorize Food for Progress' (FFP) Commodity Credit Corporation 
        (CCC) Funding.--The FFP program provides for the donation or 
        credit sale of U.S. commodities to developing countries and 
        emerging democracies to support democracy and to assist with 
        the expansion of private enterprise. In addition to its CCC 
        funding, FFP also has received as much as 40 percent of its 
        funds from Public Law 480 Title I. In the President's fiscal 
        year 2008 budget proposal total FFP funds have been decreased 
        by the amount received from Title I, leaving only CCC as the 
        program's funding source.
  --Reauthorize and Give Permanent Authority for Administration of the 
        McGovern-Dole Food for Education (FFE) Program to the U.S. 
        Department of Agriculture.--The FFE program helps support 
        education, child development, and food security for some of the 
        world's poorest children. It provides for donations of U.S. 
        agricultural products, as well as financial and technical 
        assistance, for school feeding and maternal and child nutrition 
        projects in low-income, food-deficit countries that are 
        committed to universal education. In the 2002 Farm Bill, the 
        President has the authority to designate the administering 
        Federal agency. We believe this authority should be given to 
        the U.S. Department of Agriculture permanently.
  --Reauthorize the Bill Emerson Humanitarian Trust (BEHT).--This 
        program provides for a reserve to meet emergency humanitarian 
        food needs in developing countries. We believe the BEHT should 
        be a more effective and timely tool for use in emergencies.
    Thank you for your continued support for our industries and for the 
support of these programs.
            Regards,
                    American Farm Bureau Federation: American Soybean 
                            Association: California Association of 
                            Wheat Growers: Global Food & Nutrition 
                            Inc.: Illinois Soybean Association: 
                            International Food Additives Council: Iowa 
                            Soybean Association: Kentucky Soybean 
                            Association: Minnesota Soybean Growers 
                            Association: National Association of Wheat 
                            Growers: National Corn Growers Association: 
                            National Oilseed Processors Association: 
                            Nebraska Soybean Association: North 
                            American Millers' Association: North Dakota 
                            Soybean Growers Association: Tennessee 
                            Soybean Association: United States Dry Bean 
                            Council: USA Dry Pea and Lentil Council: 
                            and USA Rice Federation.
                                 ______
                                 
          position paper of the united states dry bean council
                            food aid program
Summary
    Sixteen million metric tons of food are needed each year to meet 
minimum food assistance requirements of the 60 poorest countries in the 
world. To meet these critical minimum humanitarian and nutritional 
needs, the United States Dry Bean Council urges the continuation of in-
kind U.S. commodity donations, full funding of our highly successful 
food aid programs--specifically Public Law 480 Title II, Food for 
Progress, and the Global Food for Education Initiative, and a return to 
historical levels of thy bean utilization in the programs. USDBC also 
opposes any proposals that would further reduce or transfer the present 
base level of funding for these valuable programs.
Background
    These programs have historically met several important objectives: 
to utilize the bounty of U.S. agriculture and the humanitarian goodness 
of the American people to provide U.S. agricultural commodities for 
humanitarian relief to the world's hungry and starving people during 
emergencies; and to provide those commodities for use as a tool in 
developmental assistance programs that will lead, over time, to 
allowing less developed countries to achieve meaning improvements in 
health, education, welfare, and their economies to join in being 
productive members of the worldwide society.
    In recent years, however, we have seen a disturbing trend that is 
shrinking the scope, funding, and commodity tonnage of U.S. food aid 
programs, all to the detriment of the American humanitarian commitment, 
the American farmer, and the starving and downtrodden overseas 
recipient. Unfortunately, there still remain more than 850 million 
hungry people in the world with their needs and numbers growing greater 
each day. Consequently, USDBC is greatly concerned continued 
Administration proposals that would take as much as $300 million, or as 
much as 25 percent, from the base Title II account that would have been 
utilized to supply U.S. origin commodities for donation, and would 
transfer such amounts to AID for spending at the discretion of the AID 
Administrator on overseas commodity purchases. USDBC is also concerned 
by increasing efforts of other countries, especially those of the 
European Community to attempt to utilize food aid as a negotiating tool 
in international trade agreements.
U.S. Dry Bean Council Position
    USDBC favors policies that maximize food assistance to those in 
need. As such, USDBC strongly supports overall increases in funding for 
food aid programs, and specifically opposes funding reductions or 
transfers of base funding levels of these programs. USDBC could, 
however, support establishment of a separate discretionary AID fund for 
more rapid initial emergency response, provided that AID demonstrate 
the need for such a fund, that AID requests such funding as an original 
AID budget request, and that the base level of Title II and other food 
aid programs is not reduced as a result of such a fund.
    USDBC supports an increase in annual tonnage for all food aid 
donations to a minimum of 7.5 million MT.
    USDBC supports funding for the Global Food for Education Initiative 
of at least the original proposed level of $300 million. Per the World 
Food Program, it only costs 19 cents per day to feed a child lunch.
    USDBC believes that food aid is humanitarian assistance and should 
not be used as a negotiating tool in the WTO or other trade 
negotiations. As such, USDBC strongly supports the efforts of the U.S. 
Trade Representative to exclude food aid from such negotiations; to 
reject the ``cash only'' approach of the European community to food 
aid; to maintain the world leading United States in-kind commodity 
donation food aid programs as they have been successfully developed and 
delivered for years; and to continue the dual objective of U.S. food 
aid programs--to provide in-kind commodities for humanitarian relief 
for emergencies and for continuing development relief efforts.
    USDBC is also concerned with the significant fall off in 
utilization of dry beans, both in overall volume and as a proportion of 
the donated food package, that has occurred in recent years. This trend 
is disturbing, especially at a time when the United States government 
and private researchers continue to affirm the superior nutritional 
qualities of dry beans. USDBC urges USDA and AID in managing the food 
aid programs to return dry beans tonnage to historical proportional 
commodity levels in the programs, so that the full nutritional impact 
provided by dry beans can continue to be realized by recipients.
    USDBC encourages enforcement of the statutory mandate that 75 
percent of Title II development donations be in the form of processed, 
bagged or fortified commodities Enforcing this provision will enable 
domestic food processors and handlers a greater opportunity to 
participate in food aid programs.
    USDBC encourages full funding for transportation so the program can 
utilize all the funding that was authorized for food aid purchases.

    Senator Kohl. Thank you. Beautiful statement. Mr. 
Middleton, in order to break the cycle of poverty and hunger, 
people have to be helped to develop their own food systems as 
we know, but more and more emergencies are using up the 
available, emergencies are using up the available funds. If 
this problem continues we will do more emergencies and less 
development as we move into the future.
    In your testimony you addressed a problem of decreased 
funding for development programs. Can you explain how shifting 
the focus to funding emergencies has disrupted non-emergency 
development programs in recent years?
    Mr. Middleton. Thank you, Mr. Chairman. Yes, the needs of 
emergencies has been rising and the governmental assistance for 
the Government programs has been going down and we are really 
concerned about it because we have seen that through 
Governmental activities there's been a lot of improvements 
funding agriculture, health and infrastructure Government 
projects, using proceeds for teachers creating a HIV counseling 
and catering monetization as well. There's also been the 
terrible causeway.
    We have enhanced food security and agriculture production 
for that and we have seen this decline, especially in 
Bangladesh where we had a big development program and that 
program has now come to an end and some of the great capacity 
that we helped to build over there has diminished 
significantly.
    Senator Kohl. Mr. Middleton, as you know the actual cost of 
food in some cases is only a small part of the total food aid 
costs. Things like transportation, logistics, handling and 
security are very expensive and we need to find ways to reduce 
those costs in order to make the programs more efficient and 
more productive.
    How do you prioritize delivery of food aid among emergency 
and chronic hunger settings and to what extent does logistics 
such as transportation effect where you target aid?
    Mr. Middleton. Thank you, Mr. Chairman. Well, it is 
important to make sure that the emergency food aid that we get 
gets to the right people at the right time and yes, I do agree 
that transportation needs are rising but there's always ways of 
finding how we can address those needs because we use proper 
assessments of transport facilities and try to get the best 
quotations to make sure that the food is delivered in a timely 
manner and in the most appropriate way.
    One region has been doing big food programs in Mozambique 
and Somalia and Ethiopia and Kenya and we have used local 
transporters, small transporters to make things happen. We've 
also used monetization proceeds to supplement some of those 
costs. Like in Mozambique when we did a monetization program, 
we used some of the proceeds to transport, purchase food in 
surplus areas and move it to deficit areas where we were 
feeding these people with their own food grown in their country 
and we gave money to local transporters to buy spare parts and 
start the trucks up and running and they were able to transport 
the food from the surplus areas to the deficit areas.
    Senator Kohl. Thank you, Mr. Middleton.
    Ms. Brown, as I've said, you are a farmer as we know and 
you're a dry bean dealer from Menomonie, Wisconsin and your 
family has farmed the same land since 1858 and started the 
Chippewa Valley Bean Company in the 1970s. As I've said you're 
also President of the U.S. Dry Bean Council.
    How do you see your role as a farmer in alleviating 
worldwide hunger?
    Ms. Brown. Thank you for the question. I see my role as a 
farmer in continuing to advocate for very hungry people and for 
being here today to express agriculture's strong support for 
making sure that people with less opportunities are taken care 
of. As this country has become more and more productive in 
agriculture over the last number of years, we've had ample 
supplies of food to share beyond our borders and I think in the 
aspects of advocating and making sure that food is available, 
that's how the American farmer can come forward to help.
    Senator Kohl. Ms. Brown, U.S. food aid programs have been 
criticized for dumping U.S. commodities in foreign countries 
and displacing commercial transactions. It has become a major 
issue in the WTO negotiations. In your statement you say that 
little if any market impact occurs when U.S. grown foods are 
used as opposed to cash purchases. Now do you have any evidence 
of that, if there is no serious commercial displacement? Why do 
you think our trading partners like the EU are so determined to 
move food aid into a cash-based program?
    Ms. Brown. Well, I believe if I can reference Dr. Joel 
Toppen's paper that I talked about in my statement. As we look 
at the analysis of the criticisms over using U.S. donated food 
instead of cash, I don't think that there has been enough 
analysis done and that there have been very small studies that 
haven't looked at the broader picture and actually haven't 
taken studies within the title II program and compared them 
back to what our critics are saying.
    I think too, that the aspect of taking U.S. commodities and 
having the EU come talk about them displacing local food comes 
back to a trading factor and the point of comparing the levels 
of subsidies between one country and the United States and 
Europe because in trying to negotiate within WTO there's a lot 
of concern over who will lower what subsidies and what will be 
pointed out as a market distortion.
    Senator Kohl. Thank you very much. Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman. Ms. Brown, I 
agree with you that a lot of the criticism goes back to local 
politics in their own countries and their own subsidies for 
their own farmers and it has to do more with protectionism than 
it does with actually feeding people on the ground who need it 
and I think Americans have demonstrated that our purpose is not 
to affect the trade policies but to feed people.
    None the less, I am a little troubled by the idea that 
there should be no cash activity involved in this which you've 
proposed. The administration has suggested 25 percent, which 
may or may not be the right number, but as I understand their 
rationale, it's not to be a standard thing; it's to be an 
emergency thing.
    For example, Mr. Middleton has pointed out, Mother Nature, 
who is never stable, however much the Sierra Club would like 
her to be, Mother Nature is always changing things and always 
throwing us new challenges and right now we're in a period of 
increased earthquake activity to a level that has not been seen 
for centuries previously.
    When an earthquake happens it cannot be budgeted for in 
advance, it can't be planned, it can't be scheduled and there 
could be a time where people hit by the earthquakes desperately 
need food right now and the food that is on the dock in the 
United States in one of your bags which is scheduled for a 
planned, understood, predictable kind of pattern, is not going 
to do them any good. But there may be some food available for 
purchase much closer to the focus of the earthquake and the 
United States should have the flexibility.
    This is the argument: the United States should have the 
flexibility to say, in this instance, in this emergency, 
instead of waiting for the food to arrive from the United 
States, the United States will take the money that it would 
have spent for that food and spend it in a manner that can get 
it to the emergency challenge immediately and then as the 
standard supply lines are rebuilt as things come back into 
normal, we'll withdraw the purchasing pattern and go back to 
supplying commodities. That's the rationale that has been given 
for this and quite frankly to me, it seems logical.
    Can you comment on it? You made the statement there are not 
enough studies done on this.
    Ms. Brown. Right, well.
    Senator Bennett. And do you have studies that have done 
that and show that that argument is not legitimate?
    Ms. Brown. I can't argue with that, but the one point that 
I would make, Senator Bennett, is that rather than raiding or 
taking the money out of title II. It seems that USAID could use 
and develop a fund for local purchases.
    The other thing that has been beneficial in the past has 
been our pre-positioning of commodities in various locations 
either here in the United States or throughout the world and it 
seems that that may be an option to help in some of the very 
short term, immediate need for emergencies and when the tsunami 
hit, we actually saw a ship that was headed elsewhere diverted 
and taken into that immediate need. So there are some other 
factors that can be employed at the same time.
    Senator Bennett. I think the crux of your statement, that 
we need to look at the whole thing a little more carefully, is 
probably where we will come down.
    Senator Kohl. Thank you, Senator Bennett. Mr. Middleton 
would you like to say something or?
    Mr. Middleton. I don't know if the Senator would like me 
also to give a response to that.
    Senator Kohl. Go right ahead.
    Mr. Middleton. Well, I have had some experience with local 
purchase and one region does support a pilot program on local 
purchases. It is important to start small and then scale up 
based on evidence.
    I have a personal experience in Mozambique trying to do a 
local purchase at the same time I was also receiving title II 
food aid in Mozambique and it was quite a challenge because you 
have to know the markets. We had placed orders with 
transporters who claimed that they had trucks and could deliver 
right away but when I actually placed the order, they had no 
trucks and they were not able to deliver and they were assuming 
we were going to get trucks from others.
    We were given low tenders and the prices seemed very low so 
I thought suspicious so I said let us do some investigation and 
I found out that the maize that they were trying to sell us was 
actually stolen maize. Had we purchased that we would have been 
in some serious trouble and they also didn't want the 
consignment of about 2,000 metric tons of pure shock weight 
bags that weighed from 44 to 49 kilos instead of the standard 
50 kilos and we had to redo the whole batch. So by the time the 
whole process, it took about nearly 4 to 5 months to get all of 
the food in and start distributing it.
    At the same time I had also placed an urgent, gone forward 
with the U.S. Government of title II food and that came within 
1\1/2\ months. So there are circumstances, evidence that we 
have to look, depending on the surrounding situations so we 
have to just be careful with that.
    In closing I just want to say a big thank you to each one 
of you, a big thank you to the people of America for the 
contributions to the world you make, especially to my country, 
India which was a big recipient of food aid and I was a 
beneficiary and today I would not have been sitting here 
enjoying making this testimony and being the Vice President of 
World Vision food programs worldwide if I was not a beneficiary 
of the title II food program. So thank you very much from the 
bottom of my heart.
    Senator Kohl. That's very good, Mr. Middleton and let me 
thank you and we thank you, Ms. Brown. You've done a great job.
    Mr. Middleton. Thank you.
    Senator Kohl. We'll now move on to our last panel and it 
includes Dr. Mark Keenum, who is Under Secretary for Farm and 
Foreign Agricultural Services at USDA and Mr. James Kunder, 
Deputy Administrator at USAID.
    We thank you both for being here and if you are ready, 
we're prepared to take your statement.

STATEMENT OF MARK E. KEENUM, UNDER SECRETARY FOR FARM 
            AND FOREIGN AGRICULTURAL SERVICES, 
            DEPARTMENT OF AGRICULTURE
    Dr. Keenum. Thank you.
    Senator Kohl. Dr. Keenum.
    Dr. Keenum. Yes, sir. Thank you very much, Mr. Chairman, 
Senator Bennett, members of the committee. I'm very pleased to 
come before you today to discuss the food aid programs operated 
by the U.S. Department of Agriculture.
    One of the most significant and compelling challenges the 
world faces is chronic hunger and malnourishment. The United 
States continues its efforts to confront this challenge. We're 
the world's leading food producer, and provider of food aid. 
Through government programs, U.S. citizens supplied around 60 
percent of total food aid assistance over the past 10 years. 
These programs strive to alleviate hunger and provide 
developmental assistance to lift millions of individuals out of 
poverty.

                       CURRENT FOOD AID PROGRAMS

    Three food aid programs administered by USDA are making a 
difference in the lives of poor, hungry people--the Food for 
Progress program, the McGovern-Dole International Food for 
Education and Child Nutrition Program and the Public Law 480, 
title II program. These programs support international 
assistance and developmental activities that alleviate hunger 
and improve nutrition, education, and agriculture in some of 
the world's poorest countries.

                       FOOD FOR PROGRESS PROGRAM

    During the past 2 decades the Food for Progress program has 
supplied over 12 million metric tons of commodities to 
developing countries and emerging democracies. Commodities 
purchased totaling nearly $3 billion over this period have been 
handled through the Commodity Credit Corporation (CCC).
    During fiscal year 2006, the Food for Progress program 
provided more than 250,000 metric tons of CCC funded 
commodities valued at $131 million in 19 developing countries. 
More than 2 million people in 11 countries, including in 
Afghanistan and throughout Africa and Central America will be 
fed by this program this fiscal year and we expect to spend 
$151 million.
    In fiscal year 2008, the President's budget provides an 
estimated program level of $163 million for the Food for 
Progress grant agreements carried out with CCC funds.

                         MC GOVERN-DOLE PROGRAM

    Another highly successful program is the McGovern-Dole 
International Food for Education and Child Nutrition Program. 
It helps support education, child development, food security to 
low income, food-deficient countries that are committed to 
universal education. This year we will feed over 2.5 million 
people in 15 developing countries including Cambodia, Guatemala 
and Malawi, with the $99 million appropriated funding level.
    We appreciate the strong support this program has received 
from members of Congress. In fiscal year 2008 we're requesting 
$100 million for the McGovern-Dole program. This amount will be 
supplemented by an estimated $8 million to be received from the 
Maritime Administration for cargo preference reimbursements.
    In the last 5 years the McGovern-Dole program has helped 
feed more than 10 million children in more than 40 countries. 
In addition, proceeds from the sales of commodities are being 
used to improve school sanitation repairs and also to improve 
the skills of teachers.
    The project also includes a maternal and child health 
component which provides take-home rations to needy mothers 
with young children. By providing hot daily meals, the 
McGovern-Dole program is permitting students to remain in the 
classroom and learn for longer periods. Multi-year dimensions 
of this program are vital to address the comprehensive issue of 
chronic hunger. Moreover providing meals both at school and 
through take-home rations provides a powerful incentive for 
children to remain in school.

                     PUBLIC LAW 480 TITLE I PROGRAM

    The Public Law 480 title I program has historically been 
geared primarily toward countries that experience shortages of 
foreign exchange and difficulties in meeting their food needs 
through commercial channels. Assistance has been provided on a 
government-to-government basis by selling U.S. agriculture 
commodities on credit terms. In recent years the demand for 
food assistance using credit financing has fallen, mostly 
because worldwide commercial interest rates have been 
relatively low.
    For example in 2006, we signed only three government-to-
government credit agreements compared to seven in 2002. As 
recently as 1993, 22 title I agreements were signed followed by 
a continuing decline in the use of this program in the last 14 
years.
    We're not requesting any additional funding for Public Law 
480 title I in 2008. However the budget recommends using the 
savmaping from title I to boost title II donations.

                    BILL EMERSON HUMANITARIAN TRUST

    USDA also manages the Bill Emerson Humanitarian Trust which 
serves as a commodity reserve for the Public Law 480 program. 
This reserve is available to meet emergency, humanitarian food 
needs in developing countries relying on the United States to 
respond to unanticipated food crises with U.S. commodities.
    We currently have 915,000 metric tons of wheat in the trust 
and $107 million in cash. Cash provides the flexibility needed 
to purchase appropriate commodities based on availability and 
the specific need. In holding commodities we incur storage 
costs; holding 915,000 metric tons of wheat is costing more 
than $9 million each year or about $10 per ton. Cash allows us 
to respond much more quickly to a food crisis because we can 
easily purchase commodities whereas swapping what we have in 
the trust for what we need to provide consumes precious time 
and risks the loss of lives to hunger and starvation.

                            UPCOMING ISSUES

    This year several food assistance issues will come to the 
forefront of the domestic and international arenas. I chair the 
Food Assistance Policy Council, which is composed of senior 
representatives from USDA, USAID, the State Department and the 
Office of Management and Budget. Over the years this group has 
made significant progress in ensuring policy coordination with 
food assistance programs.
    At our last meeting we discussed several issues including 
food aid quality, the administration's 2007 farm bill proposals 
and the challenges faced in the World Trade Organization. One 
of the topics addressed was whether current food aid 
formulations and product manufacturing processes address the 
needs of at risk recipients and reflect the best available 
science. We share the concerns of many stakeholders interested 
in the performance of these food aid programs, most notably the 
quality of commodities provided under the programs.
    Some of the shared issues or concerns include delays in 
updating existing contract specifications, whether the use of 
current contract specifications will result in the acquisition 
of desired products and adequate testing procedures designed to 
ensure purchased products meet contract specifications.
    In order to address these concerns, USDA is taking the 
initiative to do an in-depth review of the types and quality of 
food products used in the administration of U.S. food aid 
programs.
    We also plan to continue our efforts of reviewing the 
existing contract specifications used to obtain food aid 
commodities and improving our post production commodity 
sampling and testing regime based on sound scientific 
standards.
    Recently I had the opportunity to meet with some of the 
leadership in the PVO community. We share the belief that both 
the quality and formulation of food aid products are crucial to 
delivering safe, wholesome products to undernourished 
populations, particularly vulnerable groups including infants 
and young children, women of child bearing age and people 
living with HIV/AIDS. Currently, we are reviewing our options 
for the nutritional quality and cost effectiveness of 
commodities being provided as food assistance.
    Our goal would be to have consultations with nutritionists, 
scientists, commodity associations, the World Food Programme, 
the PVO community, SUSTAIN, and congressional committees to 
make sure that all viewpoints are heard. We want to ensure that 
the food aid we provide is the highest caliber and meets the 
nutritional requirements necessary to address chronic hunger.
    On January 31, Secretary of Agriculture Mike Johanns 
unveiled the administration's 2007 farm bill proposal. This 
proposal recommends a significant policy change in food aid 
programs by providing the ability to use up to 25 percent of 
Public Law 480 title II funds each year to purchase commodities 
grown in the region experiencing an emergency situation.
    The change would provide the flexibility needed to improve 
the effectiveness and efficiency of U.S. food aid assistance 
efforts. As you are aware, food aid is a subject of discussions 
in the WTO negotiations. In the negotiations, the United States 
continues to strongly defend our ability to use food aid in 
emergency and non-emergency situations. Cash and in-kind food 
aid should be treated equally and face the same operational 
disciplines and transparency provisions.
    A variety of programming options must remain available to 
ensure that food aid programs can be tailored to local needs 
and that sales do not disrupt local markets or displace 
commercial imports. The monetization of food aid to create 
funds for supporting projects that result in increased economic 
activity and thereby directly confront poverty should also 
continue. As the United States has repeatedly stated, we seek 
to help lift poor families out of poverty by helping 
governments design projects that are self sustaining.
    As you see, Mr. Chairman, Senator Bennett, there are a 
number of outstanding issues in the year ahead but through all 
of the discussions and debate we must remain focused on our 
primary goal, to ensure that food needs of poor, hungry people 
are met with the long-term goal of helping needy countries help 
themselves through capacity building and economic development 
activities.

                           PREPARED STATEMENT

    USDA is proud of the role it plays in helping developing 
countries overcome hunger and malnutrition. Again thank you, 
Mr. Chairman for allowing me to present USDA's budget and 
policies for food aid. I look forward to any comments or 
questions. Thank you.
    [The statement follows:]

                  Prepared Statement of Mark E. Keenum

    Mr. Chairman, members of the subcommittee, I am pleased to come 
before you today to discuss the food aid programs operated by the U.S. 
Department of Agriculture (USDA).
    One of the most significant and compelling challenges the world 
faces is eradicating chronic hunger and malnourishment. The United 
States continues its efforts to confront this challenge. We are the 
world's leading food aid provider. Through our government programs, 
U.S. citizens have supplied around 55 percent of total foreign food 
assistance over the past 10 years. These programs strive to alleviate 
hunger and provide development assistance to lift millions of 
individuals out of poverty.

Current Food Aid Programs
    Three food aid programs administered by USDA are making a 
difference in the lives of poor and hungry people--the Food for 
Progress Program, the McGovern-Dole International Food for Education 
and Child Nutrition Program, and the Public Law 480, Title I (Public 
Law 480, Title I) Program. These programs support international 
assistance and development activities that alleviate hunger and improve 
nutrition, education, and agriculture in some of the world's poorest 
countries. By using direct donations and concessional sales of U.S. 
agricultural commodities we are able to accomplish much. With our 
budget request for 2008, we plan to accomplish more.

Food for Progress Program
    During the past two decades, the Food for Progress program has 
supplied over 12 million metric tons of commodities to developing 
countries and emerging democracies committed to introducing and 
expanding free enterprise in the agricultural sector. Commodity 
purchases totaling nearly $3 billion over this period for Food for 
Progress programming have been handled through the Commodity Credit 
Corporation (CCC).
    During fiscal year 2006, the United States provided more than 
215,000 metric tons of CCC-funded commodities valued at about $125 
million under this program. This effort supported 19 developing 
countries that were making commitments to introduce or expand free 
enterprise elements in their agricultural sectors. Again this year, 
more than 215,000 tons of commodities will be provided. More than 2 
million people in 11 countries, including in Afghanistan, throughout 
Africa, and in Central America, will be fed by this program this fiscal 
year. In fiscal 2008, the President's budget provides an estimated 
program level of $163 million for Food for Progress grant agreements 
carried out with CCC funds.

McGovern-Dole Program
    Another highly successful program is the McGovern-Dole 
International Food for Education and Child Nutrition Program. It helps 
support education, child development, and food security in low-income, 
food-deficit countries that are committed to universal education.
    This year we will feed nearly 2.5 million people in 15 developing 
countries, including Cambodia, Guatemala, and Malawi, with the $99 
million appropriated funding level. We appreciate the strong support 
this program has received from members of Congress. In fiscal year 
2008, we are requesting $100 million for the McGovern-Dole program. 
This amount will be supplemented by an estimated $8 million to be 
received from the Maritime Administration for cargo preference 
reimbursements.
    In the last 5 years, the McGovern-Dole program has helped feed more 
than 10 million children in more than 40 countries. For example, last 
year, USDA awarded Counterpart International (CPI) a grant to provide 
more than 9,000 tons of commodities for use in Senegal. This McGovern-
Dole project is using vegetable oil, textured soy-protein, and barley 
to feed nearly 18,000 primary school children and 1,800 pre-school 
children over a 3-year period. The proceeds from the sale of soybean 
oil are being used to improve school sanitation, repair schools, and 
improve the skills of teachers. The project includes a maternal and 
child health component, which provides take-home rations to needy 
mothers with young children. It also provides a growth monitoring and 
promotion program, along with a health education and assistance 
campaign. The leader of one of the villages in which the school feeding 
project is being conducted told the visiting U.S. Ambassador to Senegal 
that, ``We have already seen immediate results from this program as 
students are able to stay in school longer and learn more each day.'' 
This McGovern-Dole school feeding program provides hot daily meals to 
students, permitting them to remain in the classroom and learn for 
longer periods.
    The multi-year dimension of this program is vital to address 
comprehensively the issue of chronic hunger. Moreover, providing meals 
both at school and through take-home rations provides a powerful 
incentive for children to remain in school. Government-to-government 
partnerships coupled with the important resources provided by the PVO 
community are vital to sustain these programs and ensure success.

Public Law 480, Title I Program
    Historically, the Public Law 480, Title I program has been geared 
primarily toward countries with a shortage of foreign exchange and 
difficulty in meeting their food needs through commercial channels. 
Assistance has been provided on a government-to-government basis by 
selling U.S. agricultural commodities on credit terms. In recent years, 
the demand for food assistance using credit financing has fallen, 
mostly because worldwide commercial interest rates have been relatively 
low. For example in 2006, we signed only three government-to-government 
credit agreements compared to seven in 2002. As recently as 1993, 22 
Title I agreements were signed, followed by a continuing decline over 
the past 14 years. We are not requesting any additional funding for 
Public Law 480, Title I for 2008. However, the budget recommends that 
all Public Law 480 assistance be provided through Title II donations.

Bill Emerson Humanitarian Trust
    USDA also manages the Bill Emerson Humanitarian Trust, which serves 
as a backstop commodity reserve for the Public Law 480 program. This 
reserve is available to meet emergency humanitarian food needs in 
developing countries, allowing the United States to respond to 
unanticipated food crises with U.S. commodities. We currently have 
915,000 metric tons of wheat in the Trust and $107 million in cash. 
Cash provides the flexibility we need to purchase appropriate 
commodities based on availability and the specific need. With 
commodities, we must pay storage costs. Holding the 915,000 metric tons 
of wheat is costing more than $9 million each year or about $10 per 
ton. Finally, cash allows us to respond much more quickly to a food 
crisis because we can easily purchase commodities, whereas swapping 
what we have in the Trust for what we need to provide consumes precious 
time and risks the loss of lives to hunger and starvation.

Upcoming Issues
    This year several food assistance issues will come to the fore in 
the domestic and international arenas. I chair the Food Assistance 
Policy Council, which is composed of senior representatives from USDA, 
USAID, the Department of State, and the Office of Management and 
Budget. Over the years, this group has made significant progress in 
ensuring policy coordination of food assistance programs under the 
Agricultural Trade Development and Assistance Act and the Food for 
Progress Act. At our last meeting, we discussed several issues, 
including food aid quality, the Administration's 2007 Farm Bill 
proposals, and the challenges facing food aid policy in the World Trade 
Organization (WTO).
    One of the topics addressed was whether current food aid 
formulations and product manufacturing practices address the needs of 
at-risk recipients and reflect the best available science. For more 
than 40 years, USDA and USAID have provided micronutrient fortified 
food commodities to vulnerable, food-insecure populations. We share the 
concerns of the large number of stakeholders interested in improving 
the performance of these food aid programs, most notably the quality of 
commodities provided under the programs. Some of the shared issues of 
concern include delays in updating existing contract specifications, 
whether the use of current contract specifications result in the 
acquisition of desired products, and adequate testing procedures 
designed to ensure purchased products meet contract specifications.
    In order to address the concerns, we are taking the initiative to 
do an in-depth review of the types and quality of food products used in 
the administration of U.S. food aid programs. We would also continue 
our efforts of reviewing the existing contract specifications used to 
obtain food aid commodities, and improving our post-production 
commodity sampling and testing regime based upon sound scientific 
standards.
    Recently, I had the opportunity to meet with some of the leadership 
in the PVO community. We share the belief that both the quality and 
formulation of food aid products are crucial to delivering safe, 
wholesome products to undernourished populations, particularly 
vulnerable groups including infants and young children, women of child-
bearing age and people living with HIV/AIDS. Currently, we are 
reviewing options to review the nutritional quality and cost-
effectiveness of commodities being provided as food assistance. Our 
goal will be to have consultations with nutritionists, scientists, 
commodity associations, the World Food Program, the PVO community, and 
SUSTAIN to make sure all viewpoints are heard. We want to ensure that 
the food aid we provide is of the highest caliber to meet the 
nutritional requirements necessary to address chronic hunger.
    On January 31, USDA Secretary Johanns unveiled the Administration's 
2007 Farm Bill proposal. The Farm Bill proposal recommends a 
significant policy change in food aid programs--providing the ability 
to use up to 25 percent of Public Law 480, Title II, annual funds to 
purchase commodities grown in the region experiencing an emergency 
situation. The change would provide the flexibility needed to improve 
the effectiveness and efficiency of U.S. food aid assistance efforts.
    As you are aware, food aid is a subject of discussion in the WTO 
negotiations. In the negotiations, the United States continues to 
strongly defend our ability to use food aid in emergency and non-
emergency situations. Emergency food aid should not be disciplined 
because flexibility must be maintained to respond to people in crisis. 
Non-emergency food aid should only be disciplined to ensure that it 
does not displace commercial sales. Cash and in-kind food aid should be 
treated equally in operational disciplines and transparency provisions.
    A variety of programming options must remain available to ensure 
that food aid programs can be tailored to local needs and that sales do 
not disrupt local markets or displace commercial imports. The 
monetization of food aid to create funds for supporting projects that 
result in increased economic activity and thereby directly confront 
poverty should continue. As the United States has repeatedly stated in 
these negotiations, we seek to help lift poor families out of poverty 
by helping governments design projects that are self-sustaining.
    As you can see, Mr. Chairman, there are a number of outstanding 
issues in the year ahead. But through all the discussions and debate, 
we must remain focused on our primary goal--to ensure that the food 
needs of poor and hungry people are met, with the long-term goal of 
helping needy countries help themselves through capacity building and 
economic development activities. USDA is proud of the role it plays in 
helping developing countries overcome hunger and malnutrition.
    I want to thank you for allowing me to present USDA's budget and 
policies on food aid. I look forward to any comments or questions you 
may have. Thank you.

    Senator Kohl. Thank you for a fine statement, Dr. Keenum. 
Mr. Kunder.

STATEMENT OF JAMES KUNDER, DEPUTY ADMINISTRATOR, UNITED 
            STATES AGENCY FOR INTERNATIONAL DEVELOPMENT
    Mr. Kunder. Thank you, Mr. Chairman. Chairman, Senator 
Bennett, on behalf of the men and women of the U.S. Agency for 
International Development, we very much appreciate your 
interest in this topic.
    We have one of the toughest jobs, but one of the best jobs 
in the U.S. Government and that is to work in 90 of the world's 
most difficult environments both on the front lines of U.S. 
national security, and to project the humanitarian instincts of 
the American people. Food aid, we believe, is central, both to 
protecting our national security and projecting those 
humanitarian instincts.
    The administration is requesting $1.2 billion under title 
II, and also is requesting authority to use up to 25 percent 
for local or regional purchase. In my statement today, sir, 
what I'd like to emphasize is the centrality of food assistance 
to our work at USAID.
    We have an objective, as part of our food aid strategy: ``A 
world free of hunger and poverty where people live in dignity, 
peace and security.'' And food aid assistance, especially the 
title II program is central to that.
    In my statement, which I'd like to briefly summarize, I 
make six basic points. Number one, the biggest challenge we 
face, as Senator Bennett was just mentioning, is the 
unpredictability of the disasters we face around the world. 
There are an increasing number of hungry people in the world 
and those natural disasters and conflicts make the delivery of 
food assistance to them particularly difficult.
    Number two, we focus our assistance on what we believe are 
the most immediate, pressing emergency situations. I've tried 
to describe in my statement the difficulty, including the long 
supply line, of getting a ton of food from the Mississippi 
Valley to, for example, Darfur province, and the many steps 
along the way to do that.
    Number three, we do take very seriously the statutory 
requirements to deliver a substantial amount of non-emergency 
food assistance so we can be looking over the horizon and 
trying to head off the next wave of hunger and famine around 
the world.
    Number four, and this is one point I want to leave clearly 
with the committee, is that we take seriously the maximization 
of non-food resources towards ending hunger. For example, we 
use foreign assistance dollars provided by the Congress that 
are non-title II funds to directly address hunger problems 
around the world, such as through a very effective famine early 
warning system that allows us to target our food aid to the 
areas of greatest need.
    That famine early warning system is not funded through the 
title II resources provided by the Congress. The many other 
programs that affect hunger around the world, such as HIV/AIDS 
prevention activities, and vaccinations for children who may be 
suffering from malnutrition, also come from non-title II 
resources.
    Number five, we try to coordinate very carefully with our 
colleagues at USDA. We have an excellent relationship, working 
closely on issues such as food quality. I just came back from 
Afghanistan where I saw some of our USDA colleagues working 
with our USAID colleagues in provincial reconstruction teams 
out in the most isolated portions of Afghanistan helping to 
fight the war on terror there.
    Number six, and my last point, is that I believe we need to 
make some critical changes to make food aid a 21st century 
program. We believe that local purchase is critical in this 
regard.

                           PREPARED STATEMENT

    I know there's been some discussion about whether we need 
further study of this. While we have not done local purchase 
with the title II provided resources, the World Food Programme 
and Non Governmental Organization (NGOs) we work with, have 
substantial experience in local and regional purchase. So I 
would be glad to provide additional information to the 
committee but this is something on which there is a wealth of 
experience among those organizations.
    Those are the points that I tried to make, sir. I'd be glad 
to answer any questions. Thank you.
    [The statement follows:]

                   Prepared Statement of James Kunder

    Chairman Kohl, Members of the Subcommittee, I am pleased to have 
the opportunity to meet with you today to discuss the Administration's 
request for fiscal year 2008 funding for Public Law 480 Title II food 
aid.
    I would like to take this opportunity to thank you and your staff 
for supporting the Title II program, which has been critical in the 
battle against hunger around the globe. Title II provides food aid in 
response to emergencies and disasters through Private Voluntary 
Organizations (PVOs) and the United Nations World Food Program (WFP) as 
well as through PVOs for development-oriented programs to address the 
root causes of food insecurity.
    The U.S. Agency for International Development (USAID), an 
independent Federal Government agency that receives overall foreign 
policy guidance from the Secretary of State, provides economic, 
development and humanitarian assistance to over 90 countries around the 
world in support of the foreign policy goals of the United States.
    Last year, Ambassador Randall Tobias was named as both the USAID 
Administrator and the first Director of U.S. Foreign Assistance. In 
this latter role, he has authority over all Department of State and 
USAID foreign assistance funding and is charged with ensuring that 
foreign assistance is used as effectively as possible to meet broad 
foreign policy objectives.
    The security of the American people depends on global stability and 
prosperity. The foreign aid reform process that Secretary Rice and 
Ambassador Tobias have launched has resulted in an fiscal year 2008 
budget request that aims to make more effective use of taxpayer's money 
in helping meet these goals. The budget request was a collaborative 
effort that drew extensively from the expertise found across agencies. 
It is focused on maximizing country progress by addressing specific, 
critical gaps in their development and to help recipient countries move 
from a relationship defined by dependence to one of partnership.
    The Administration's fiscal year 2008 request for Title II food aid 
reflects this focus. The Administration has requested $1.219 billion in 
Title II food aid, along with the authority to use up to 25 percent of 
appropriated funds for local and regional procurement in emergency and 
other food security crisis situations. This request continues our 
commitment to addressing the most severe and critical emergency food 
aid needs, while increasing funding predictability for non-emergency or 
development food aid programs.
    Although the request is similar to previous years in many respects, 
I would like to use this opportunity to describe--in six points--our 
perspective on the changing context of food aid; our past practices 
using appropriated Title II funding; and our proposal for the use of 
the requested fiscal year 2008 funding. Integration is the common 
thread running throughout these remarks--integration of emergency and 
non-emergency resources, integration of food aid and other development 
resources, and integration of the efforts of USAID with other 
departments and agencies involved in development programming.
First, the greatest challenge we face is the unpredictable nature of 
        emergencies and their increasing frequency
    Devastating wars and natural disasters have often brought in their 
wake an emergency food crisis. However, over the last 5 to 10 years, we 
have seen a significant increase in the numbers of people affected.
    Take drought, for example. There have been droughts periodically 
for thousands of years. But now droughts in Africa are affecting 
communities increasingly characterized by a deep and widespread 
poverty, an anemic agricultural base, a lack of access to markets, and 
poor governance and policies. Over the last decade, we have seen large 
population groups--pastoralists in East Africa, poor farmers in the 
Sahel, HIV/AIDS-affected populations in southern Africa--whose lives 
and livelihoods are at severe risk. These groups are increasingly 
unable to cope with recurring droughts that used to cause major food 
crises once every 10 years, then every 5 years, and now, possibly as 
little as every 2 or 3 years. The cumulative effect is that more and 
more people are becoming chronically vulnerable to major food crises 
now triggered by relatively small changes in rainfall. What represented 
a minor dearth of rainfall in the past now may trigger a food crisis.
    Additional contributing factors include numerous continuing 
conflicts and poor governance. Entire generations in some countries 
have grown up in an atmosphere of civil unrest, if not warfare. 
Conflict-ridden societies such as Sudan and Somalia currently require 
food aid to sustain populations disrupted by insecurity and war.
Second, we will continue to focus emergency food aid on preventing 
        famine and saving lives where the need is greatest
    USAID puts considerable effort throughout each year into 
prioritizing the countries that receive emergency food aid. This is a 
difficult task because the situations in each country cannot easily be 
compared. A number of relevant factors come into play, including:
  --Overall need, as measured by objective assessments of required 
        rations and tonnage;
  --Severity of the need, as measured by malnutrition rates and other 
        factors;
  --Ability of populations affected to cope with the emergency using 
        resources at their disposal;
  --The amount that other donors are planning or are likely to provide; 
        and
  --Ability of aid organizations--PVOs and WFP--to reach those most in 
        need and monitor distributions, both of which may be hampered 
        by insecurity, government actions or logistical constraints.
    It should be underscored that emergency food assistance is extended 
to people in need regardless of the political regime they live under 
and the actions of their countries' leaders, provided that adequate 
access and monitoring of the food aid is allowed. Such a policy is a 
long and proud American tradition that spans administrations and one 
that this administration holds dear. For example, the United States was 
the largest food aid provider to Afghanistan during Taliban rule, and 
this is remembered by the people of Afghanistan.
    To grasp the complexity of USAID's emergency food aid operations, 
consider Darfur and our efforts to deliver sorghum to over three 
million beleaguered people in numerous camps spread across an area 
about the size of Texas.
  --In the United States, sorghum is grown primarily in Texas, 
        Oklahoma, Kansas, Nebraska and California.
  --Harvested sorghum is either stored by farmers or sold to grain 
        traders.
  --When WFP or a PVO identifies a specific need, such as in Darfur 
        where people traditionally eat sorghum, USAID asks USDA's 
        office in Kansas City to put out a tender for bids.
  --Traders, or farmers themselves, bid to supply the sorghum, and USDA 
        signs a contract to buy it on the open market.
  --USAID and USDA jointly contract for the transport of the sorghum, 
        frequently using rail and river barges, to U.S. ports, often to 
        the Gulf coast.
  --USAID, WFP and PVOs contract for shipping, the vast majority of 
        which is on U.S.-flagged vessels, to deliver the food to Port 
        Sudan.
  --When the food arrives in Port Sudan, WFP takes possession and 
        contracts Sudanese companies to truck it for thousands of miles 
        to warehouses in the three Darfur states.
  --From that point, WFP and PVOs, with their own fleet or local 
        commercial truckers, carry the food through often dangerous 
        areas to camps or other distribution sites, where it is 
        provided to people who have received ration cards stating their 
        family size and quantity of ration.
    Geographically, El Geneina, the capital of West Darfur, is 
literally in the heart of Africa, further from any ocean than any other 
city on the continent. This operation is a complex, critical lifeline 
from farmers in the United States to the heart of Africa--fragile at 
certain points, and subject to disruption--that spells the difference 
between life and death for over three million people. As an operation 
in what the State Department's recently released Human Rights Report 
calls the worst human rights situation in the world today, our 
operation in Darfur is of critical importance to the United States.
    In 2008, it is likely that some of the current food crises could 
still be with us. For example, there are likely to be continuing 
emergency food aid needs in Sudan and elsewhere due to conflict, and in 
the Horn of Africa due to the lingering impact of drought in the 
context of extreme poverty. We do not know at this stage how large the 
needs will be. In addition, the needs for Southern Africa are 
particularly uncertain due to flooding in some parts of the region and 
poor rains in other parts.
Third, we will continue to focus non-emergency food aid in the most 
        food insecure countries
    In 2005, USAID issued a new Food Aid Strategic Plan. This plan 
seeks to make the best use of Title II food aid resources by allocating 
resources to the most vulnerable people in order to help build 
resiliency, enabling them to withstand the next drought or flood and, 
therefore, decrease dependency on food aid in the future.
    We are focusing the food aid resources available for non-emergency 
programs on the most food insecure countries. Resources that were 
historically spread across over 30 countries are now being 
concentrated. This will allow us to address the most pressing food 
security needs on a scale that will have a greater impact (especially 
in the countries that continue to need emergency food aid) and to 
reduce the need for emergency food aid over time.
    To avoid abrupt changes and disrupting on-going programs, the 
initial focus of the prioritization effort was limited in scope to 
countries with ongoing PVO programs. In 2006 and to date in 2007, 
grants for programs that were not in the most food insecure countries 
were not renewed, and funds were shifted to support programs in the 
most food insecure countries.
    In 2008, under the new Foreign Assistance Framework and reform 
process, we anticipate taking the next logical step, reviewing the most 
food insecure countries receiving U.S. foreign assistance (not just 
Title II non-emergency funding) and considering, for example, where and 
how to implement non-emergency food aid programs that would be highly 
effective, regardless of whether they originally had ongoing PVO 
programs. In this way, we can take advantage of opportunities to assist 
people in the most food insecure countries at crucial turning points--
for example, the transition from humanitarian relief to development in 
post-conflict situations--where concentrated food aid efforts could 
play a critical role.
    The prioritization process has given us the ability to make a much 
stronger and tighter justification for the use of food aid resources in 
countries that have received priority designation. Since this 
prioritization effort started, the steady decline in funding levels for 
non-emergency programs has been reversed. We are confident that 
prioritization, coupled with increasing integration into country 
operational planning in the Foreign Assistance Framework and increasing 
emphasis on performance, will strengthen non-emergency food aid 
programs across the board.
    In 2008, we anticipate our largest non-emergency food aid programs 
will be in Haiti, Bangladesh, Ethiopia, Uganda, and Mozambique.
Fourth, to have the greatest impact, we will increasingly seek to 
        integrate food aid resources with other funding resources, to 
        address both emergency situations as well as chronic needs
    Despite the investments and the progress made over the past 50 
years, nearly 850 million people are still food insecure. And though 
the Administration sees itself as playing a critical role in addressing 
short-term food needs and saving lives, it recognizes that simply 
feeding people from one day to the next is not going to end hunger. 
While Title II provides funds for transport and distribution of 
commodities, we and our partners also need cash to fund other 
components of development food aid programs. PVOs monetize some of our 
food aid, selling locally and using the proceeds to implement 
activities that are part of the broader Title II program, such as 
training agricultural extension workers. But there are limits to the 
extent this can be done and we need to be careful not to have negative 
effects on local markets and production.
    USAID therefore draws upon funds from other accounts to complement 
Title II resources. To improve our emergency response, for example, we 
use non-Title II resources to:
  --Manage a worldwide Famine Early Warning System, which has been 
        instrumental in identifying those places likely to need food 
        aid and helping us target that assistance within those 
        countries; and
  --Provide non-food assistance for those in need, such as 
        vaccinations, health care, potable water, shelter and other 
        necessities.
    To forestall potential food crises in Ethiopia, we have used 
International Disaster and Famine Assistance funds designated for 
famine prevention and relief to help link pastoralists who had animals 
that were dying due to a drought to traders who were willing to 
purchase the animals that were still in a relatively healthy State. In 
this way, we were able to help prevent the pastoralists from becoming 
destitute and becoming dependent upon food aid for their survival.
    To address the underlying causes of food insecurity in our non-
emergency programs, we often seek to integrate Title II and other 
funding sources in the same programs, joint-funding PVOs. In Haiti, for 
example, we use Child Survival and Health funds to train health care 
workers to monitor the growth of young children who are receiving food 
aid under the Title II component of the program. In Mozambique, 
Development Assistance funds are used, in conjunction with Title II 
funds, to support road rehabilitation and help farmers get their 
products to market more quickly and get fair prices.
    As mentioned above, under the new Foreign Assistance Framework, 
USAID and the State Department will work to integrate all foreign 
assistance resources toward a number of objectives designed to help 
host countries sustain their efforts at advancing development.
    We anticipate that we will also accelerate the integration of Title 
II non-emergency programs with other resources that will improve the 
predictability of funding levels. While this is new and still a 
developing process, we have high hopes that over time we can 
significantly increase the impact of Title II programs.
Fifth, USAID works closely with the State Department, USDA, and our 
        implementing partners in every aspect of the program
    Under the foreign aid reforms, USAID continues to work closely with 
the State Department in focusing resources on important foreign aid 
goals.
    USAID and State have begun to strengthen the coordination between 
the Office of Food for Peace and the Office of the Global AIDS 
Coordinator as linkages between food and HIV/AIDS have become clearer, 
and we will accelerate these efforts in the coming year. Our task is to 
find ways to integrate food aid and related resources into HIV/AIDS 
programs, and to adapt food security programs so that HIV-affected 
households participate in and benefit from activities aimed at reducing 
food insecurity at the community level.
    We also continue to work closely with USDA to approve commodity 
specifications, purchase commodities, arrange ocean discharge surveys 
and investigate commodity quality issues. When unanticipated needs for 
emergency programs exceed available funding levels, USAID also works 
with USDA to access the Bill Emerson Humanitarian Trust.
    Because we share the common objective of feeding the hungry and 
saving lives, we have a long tradition of close collaboration with the 
PVO community. This extends to technical issues as well as on 
monitoring and evaluation. We support PVO efforts directly through 
institutional capacity building grants totaling several million dollars 
each year.
    In terms of emergency food aid, we have been focusing our efforts 
on encouraging other donors to increase their food aid contributions. 
We do this through extensive diplomatic discussions, bilaterally in 
capitals, in the field and through the Food Aid Convention, an 
agreement among 22 countries to commit to minimum levels of food aid. 
We are working closely with other food aid donors under the Convention 
to improve food aid assessments, and to help sharpen donor attention on 
the importance of reaching a consensus on food-related commitments that 
will reduce specific threats to vulnerable populations.
    In addition, we strongly support, and are especially pleased with, 
the efforts of WFP to expand its donor base beyond its strong reliance 
on the United States.
  --Over the past 5 years, the number of WFP donors has grown from 60 
        to 97, an increase of 62 percent.
  --In 2006, 12 new donors provided support to WFP operations, making 
        the majority of donors now non-OECD (Organization for Economic 
        Co-operation and Development) countries.
    As a result, while U.S. funding for WFP has increased in absolute 
terms, the U.S. share of all WFP contributions has decreased from 63 
percent in 2001 ($935 million out of a total WFP budget of $1.81 
billion) to 44 percent in 2006 ($1.22 billion out of a total WFP budget 
of $2.8 billion).
Sixth, to allow us to address the challenges of the 21st Century, we 
        will need reform of the food aid system
    While we are currently undergoing a thorough review of all food aid 
reform issues in anticipation of the Farm Bill, and look forward to the 
full findings of a soon-to-be completed GAO review of food aid, there 
is one issue that is so important that we have been seeking it in 
recent appropriation requests and will seek it in the Farm Bill this 
year--the authority to use part of Title II as cash for local 
procurement to address emergency needs.
    The long lead-time required to order and deliver U.S. food aid--
normally up to 4 months--means that we often need to make decisions 
well before needs are known. In some cases, the need is sudden, such as 
during a flood or an outbreak of fighting. In other cases, there is an 
unanticipated pipeline break, or even a short-lived cease fire allowing 
aid agencies to enter places previously inaccessible because of 
security issues where, typically, we find people that have been cut off 
from food for some time.
    Even in the case of drought we are challenged to get food to people 
on time. There have been great advances in the ability to predict and 
track rainfall, undertake post-rains harvest assessments, and follow 
changing prices, resulting in better early warning. While we can often 
predict the impact of poor rains on crops, it is difficult to predict 
its impact on the ability of people to purchase enough food to eat. In 
the Sahel in 2005, for example, merely below-average rains and a 
marginally weak harvest, known well in advance, resulted in an 
unexpected major crisis because these conditions were compounded by 
unpredictable trade flows among neighboring countries. This drew food 
away from regions with very poor populations, causing price spikes 
there and an urgent need for food aid.
    While it is impossible to predict the location and extent of 
emergencies that would require local procurement each year, the 
Administration would have considered using this authority for the 
immediate response to Iraq in 2003, to the Asian tsunami in 2004, in 
southern Africa and Niger in 2005, in Lebanon in 2006 and in East 
Africa in 2006 and 2007. We anticipate that purchases would occur in 
developing countries (in accordance with the OECD Development 
Assistance Committee List of Official Development Assistance 
recipients).
    Let me assure you that our U.S-grown food will continue to play the 
primary role and will be the first choice in meeting global needs. If 
provided this authority by the Congress, we would plan to use local and 
regional purchases judiciously, in those situations where fast delivery 
of food assistance is critical to saving lives.
    We ask that you seriously consider our proposal and the critical 
role this authority could play in saving lives of the most vulnerable 
populations. We are willing to work with you to address your concerns 
and move forward to provide the needed flexibility.
    As we look ahead, let me assure you that the Administration remains 
committed to its role in supplying food aid to vulnerable people. We 
have fought and won many battles in the fight against hunger and 
malnutrition. Our programs have saved millions of lives, averted 
famine, and helped countries lift themselves out of poverty and 
dependence.
    We at USAID are very proud to have played a part in the 
extraordinary story of U.S. food aid, and we are committed to making 
still more progress, with the support of the Congress and our partners, 
in achieving greater food security in the years to come. I would again 
like to thank you for the support that your Subcommittee has given to 
assist the Administration in addressing food security needs abroad, 
demonstrating to the world the great heart of the American people as 
well as furthering our national security at home.

    Senator Kohl. Thank you for a very good statement, Mr. 
Kunder. Dr. Keenum, McGovern-Dole International Food for 
Education and Child Nutrition Program helps promote education, 
child development and food security for some of the world's 
poorest children, provides for donations of U.S. agricultural 
products as well as financial and technical assistance for 
school feeding and maternal and child nutrition projects in low 
income countries and nearly seven million children were fed 
from 2001 to 2003.
    What effect has the McGovern-Dole program had on school 
attendance, especially for girls?
    Dr. Keenum. Thank you for the question, Mr. Chairman.
    There's been a review of the status and the progress that 
has been made on the McGovern-Dole program. A study that was 
conducted last April and was actually submitted to Congress, 
reviewed the program since implementation, and it showed that 
attendance of schools that were participating in the program, 
increased by 14 percent and for girls, the increase was 17 
percent. So we've seen a pretty significant increase in 
attendance in schools as a direct result of the McGovern-Dole 
program.
    Senator Kohl. Thank you. What is being done to make sure 
that the levels of enrollment are sustained and are the 
recipient governments helping?
    Dr. Keenum. Yes sir. We're working very closely with our 
implementing partners. The McGovern-Dole program works with 
local communities, parent-teacher organizations, and the 
Federal Governments of recipient countries. When the 
applications are made for the McGovern-Dole program, the way I 
understand it, the applicant has to lay out a plan for how 
they're going to sustain themselves and not be continually 
dependent on the U.S. Government for this program. The 
organizations lay out a plan that shows how they are going to 
sustain themselves and graduate from the McGovern-Dole program.
    In fact, recently, we've had four countries who were 
participating in the McGovern-Dole program who have graduated--
Kyrgyzstan, Lebanon, Moldova and Vietnam. USDA continues to go 
back and monitor these countries, in particular, Lebanon, which 
had graduated before the war episode happened this past year.
    So we're going back and we're looking to see if Lebanon 
needs to be re-enrolled in the McGovern-Dole program based on 
the circumstances in their country now. So yes, sir, we're 
working very closely with the local leaders that are involved 
in this program.
    Senator Kohl. Thank you. Dr. Keenum, a question on food aid 
quality. People with HIV/AIDS, the elderly and other vulnerable 
populations need food with special nutrients. The 2002 farm 
bill requires the establishment of a program to study food aid 
quality to make sure that the food is culturally appropriate 
and also nutritious.
    We've had requests from members to study this issue. How 
important are nutrient fortified foods for improving our food 
aid programs?
    Dr. Keenum. I think very important, Mr. Chairman. I've been 
in this current job for about a little over 2 months and I've 
been learning a great deal about food aid and I'm asking a lot 
of questions.
    The Farm Service Agency, has an office in Kansas City and 
it is responsible for procuring all the commodities that we use 
for international food aid. I've talked to leaders in the PVO 
community who have a concern about the quality of our products 
and I've asked our staff to put together a plan on what we can 
do to evaluate our food procurement programs both on our 
contract specifications, and having an adequate audit and 
testing provision in place. This will ensure that the products 
that we order are what we ordered. We want to test them and 
ensure that a sound system is in place.
    There's also a third component of this that we're going to 
pursue and we're going to work with our colleagues in USAID to 
talk about the quality of the actual products for these 
different groups who are at risk as you mentioned. People 
dealing with HIV/AIDS, expectant mothers, the elderly, or young 
children, they all have different nutritional needs, and we 
need to develop the product that's cost effective and efficient 
to deliver and meets their unique nutritional needs.
    That's one of the things that I'm going to be committed to 
working towards in my position. I've talked with members of the 
committee staff and even informed them of what we're doing and 
we're going to look to see if we can reallocate any funds 
within USDA to start this process. We will work with the 
stakeholders, SUSTAIN and other PVO leaders, work with 
academics to address this issue and I've committed to keep this 
committee fully apprised of what our plan will entail on this 
very important issue of food quality.
    Senator Kohl. Alright. Dr. Keenum, in your opinion will 
eliminating the requirement that food must be purchased in the 
United States and shipped on U.S. flagships, would that effect 
the support in our country for food aid programs?
    Dr. Keenum. Well, Mr. Chairman, I try to put things in 
perspective. I wear a lot of hats at USDA. One of the other 
hats I wear is working with our promotion programs for 
exporting U.S. agriculture commodities. We export 200 million 
metric tons of U.S. grain and oil seed products in the 
commercial export market.
    United States programs only contribute and I shouldn't say 
only because it's quite a bit, but we contribute only 2.8 
million metric tons of grains and oil seeds through food aid. 
If you do the math, that's less than 1\1/2\ percent of all the 
grains and oil seeds that we export.
    I think Senator Bennett described it very well. The 
administration's position is there for emergency purposes and 
if we need to go in and we need to respond immediately to save 
lives then we have another tool in our tool box to do that. If 
we can't find the commodities in the local community then we're 
going to buy U.S. commodities. If we use the 25 percent in a 
given year then that's only affecting 25 percent of less than 
1\1/2\ percent of all the grain and oil seeds that we export in 
the commercial channels. So, in the scheme of things it's 
pretty small as far as an impact on our commodity industries.
    Senator Kohl. Okay. Mr. Kunder, the President's budget 
proposes to allow up to 25 percent of food aid to be provided 
in cash for local in-country purchases. The budget has included 
similar language over the last few years and that has been 
rejected soundly by Congress.
    If cash is used for local or regional purchases, how do you 
ensure that food is available for purchases and food purchases 
are safe, nutritious and proper for food aid assistance? Would 
local households manage cash better than they would actual 
food?
    Mr. Kunder. As we envision how this would work, the local 
purchase would still involve dealing with the NGOs or the 
highly competent international organizations, such as the World 
Food Program, and the International Committee of the Red Cross. 
They would be the people managing the pipeline.
    So that the experts who are now ensuring access by the most 
disadvantaged groups and ensuring quality control would still 
be the ultimate distributors of the food assistance to the 
people who need it the most. It would just be where that food 
is coming from that differs. Also, we would require both local 
market analysis and quality control, as we would expect from 
these highly competent organizations who have been doing this 
for a long time.
    I completely agree with everything Under Secretary Keenum 
just said. We do need to take a look at ways we can improve 
quality control but I do not believe that local purchase 
authority, up to 25 percent, would affect either quality or 
access by the poorest people in the country.
    Senator Kohl. That's good to hear. Thank you, Mr. Kunder. 
Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman. You've asked some 
of the questions that I would have asked as well. So let me 
stray into a different area but I think it's related to what 
we're talking about and certainly it is long term.
    Dr. Keenum, you talk about the importance of teaching 
someone to become self sufficient rather than just providing 
food, particularly in the areas where we're talking about in 
Africa, one of the major ways that they could become more self 
sufficient would be if they adopted the use of genetically 
modified organisms.
    A plant, with changing a single gene, as I understand it 
the average plant has about 50 genes which means it's very 
simple compared to the human genome project. By changing a 
single gene you can make it drought resistant. I think we're 
facing very significant drought conditions in the relatively 
short term.
    Our European friends call this ``Frankenfood.'' They've 
managed to scare the Africans into believing that their 
population will be poisoned if they allow this in and yet 
25,000 people a day are dying and they could raise their own 
food that would be drought resistant or predator resistant, you 
change a single gene and the bug that eats this particular 
plant no longer likes it and you don't have to use pesticides 
because the pest is no longer there.
    The implications of being able to feed those 25,000 people 
without major budget increases here, without some of the 
challenges we face, are enormous. Is USDA doing anything to try 
to convince somebody, somewhere that the introduction of GMOs 
into their local growing procedures could solve their problem 
and give us a poster child that we can point to in sub-Saharan 
Africa and say to the other people, look, nobody's dying, 
nobody's growing up with three heads or only two fingers, or 
any of the rest of kinds of scare stories that we hear about 
``Frankenfood.''
    Can't we find some partner somewhere to try drought 
resistant or pest resistant food genetic changes and then 
produce a harvest that can save these 25,000 people per day?
    Dr. Keenum. Well, I think you outlined the situation 
excellently, Senator. There's no doubt improvements in 
technology and production of agricultural commodities is 
remarkable. We see it here in the United States in our 
bountiful production capabilities and what we can do and it's 
directly, in a large part, attributed back to genetically 
modified improvements and developments we've made in the crops 
that we produce.
    The USDA does do outreach work in developing countries in 
Africa and other parts of the world on technologies that we 
have available and I'll be honest with you, I'm not real 
familiar with all of the intricate details and what all we're 
doing in an outreach standpoint in that regard, but I do know 
it is ongoing. We do this type of work.
    I think that the more examples as you described where we 
can show successes, I think it will catch on. We are seeing 
other countries that we compete with that are adapting to these 
new varieties and they're becoming more and more apt at it and 
we're having to be more competitive. Countries where there had 
been resistance in the past are seeing the light, as you say 
and are making these significant transitions.
    We will continue our efforts. I do know in some of the food 
aid activities through Food for Progress when we can provide 
commodities to PVOs, who are working to help sustain local 
communities, part of that can also be monetized for economic 
development initiatives to address local needs. I'm hopeful 
that some of the activities involve training and educating 
farmers to be more productive. Then they can sustain themselves 
and not be dependent on a bag of beans, as was presented here 
earlier, but they can be shown the techniques and technologies 
that we have available, using the existing tools that we 
provide through the monetization process.
    These are some of the things that are ongoing and I applaud 
what you say and I could not agree more with your thoughts. 
Thank you, Senator.
    Senator Bennett. Thank you. I don't want to stop sending 
the bag of beans.
    Dr. Keenum. No, sir.
    Senator Bennett. I think there will always be a need or 
sufficient demand.
    Dr. Keenum. There will be a need for that, no question.
    Senator Bennett. We can do that, it's an important part of 
our foreign policy.
    Dr. Keenum. No question.
    Senator Bennett. Aside from our humanitarian activity but 
we're still seeing 25,000 people a day die, regardless of how 
many beans we send them and we should send them our technology 
as well.
    Dr. Keenum. I agree.
    Senator Bennett. Thank you, Mr. Chairman.
    Senator Kohl. The subcommittee has received a statement 
from the American Dietetic Association that will be placed in 
the hearing.
    [The statement follows:]

        Prepared Statement of the American Dietetic Association

    It is appropriate for the Senate Agriculture Appropriations 
Subcommittee to hold this hearing on International Food Assistance. 
Hunger is intolerable in a world of plenty. Still, more than 1 billion 
people worldwide currently live in poverty, earning less than $1 per 
day.\1\ As a result of poverty and the related problems in obtaining 
adequate, nutritious food, about 820 million people in the developing 
world are undernourished.\2\ Hunger and malnutrition have negative 
effects on cognitive development, growth, and health which then lead to 
negative effects on labor productivity and a nation's development.
---------------------------------------------------------------------------
    \1\ World Bank. 2006 World Development Indicators. Washington, DC: 
World Bank; 2006.
    \2\ State of Food Insecurity in the World 2006. Food and 
Agriculture Organization of the United Nations. 2006.
---------------------------------------------------------------------------
    For decades, the United States has played an important role in 
addressing hunger around the world and our efforts have made it 
possible for millions of people to have survived famine (more often 
fanned by civil strife than crop failures). In addition, our food 
assistance contributions help save lives, lead to the education of 
children, create pluralism, build societies and forge friendships in 
our complicated world. International food assistance is far more than 
providing food--it is the connection of life and opportunity--from 
those in a position to give to those in a position of need. The 
benefits to everyone are incalculable--well beyond monetary 
measurements, although the monetary benefits are significant.
    The American Dietetic Association (ADA) commends the committee for 
considering what our role can and should be in advancing nutrition and 
health, as well as addressing hunger. ADA is the largest organization 
of its kind and it is guided by a philosophy based on sound science and 
evidence-based practice. ADA members are sought-out participants in 
domestic and international discussions as they work on nearly every 
aspect of food, nutrition and health.
    It is the position of the American Dietetic Association that it is 
a human right to have access to adequate amounts of safe, nutritious, 
and culturally appropriate food at all times. The Association supports 
programs and encourages practices that combat hunger and malnutrition, 
produce food security, promote self-sufficiency, and are 
environmentally and economically sustainable.\3\
---------------------------------------------------------------------------
    \3\ Addressing World Hunger, Malnutrition and Food Insecurity. J Am 
Diet Assoc. 2003;103:1046-1057.
---------------------------------------------------------------------------
    In this farm bill, ADA recommends food should not be used as a 
sanction against other nations. The American agricultural community has 
led the fight against ``food being used as a weapon.'' ADA joins them 
in that stance.
    ADA supports the continuation of emergency humanitarian food 
assistance. Donations should not undermine local food production or 
marketing systems or distort trade. Similarly, the structure of U.S. 
domestic programs should not undermine food production or marketing 
systems outside the United States or distort trade.
    ADA supports the Dole-McGovern International Food for Education 
Program for its role in feeding children and encouraging education, and 
encourages its full funding.
    We also bring to the committee's attention that currently, there is 
no international initiative to deal with the most costly form of 
malnutrition--that is from ages 0 to 2. In all other stages of life, 
people can recover from malnutrition, but the impacts of nutrient 
deficiencies on children in the womb and up to age 2 can never be 
overcome. They include low birth weight, impaired cognitive 
development, impaired immunity and reduced earning potential and 
compromised life expectancy.
    World Bank and others are proposing a global campaign to encourage 
breast feeding, to educate parents about nutrition and to make certain 
that every child--from womb to age 2--has the necessary nutrients to 
live and grow to full potential. As these discussions move forward, ADA 
encourages this committee to support efforts targeting those most 
vulnerable to malnutrition. The socio-economic effect of addressing 
malnutrition in the very young (and in their mothers) is greater than 
the whole impact of global trade liberalization.
    Clearly, there is significant potential benefit in addressing 
international hunger, nutrition and health issues now, before 
circumstances deteriorate, and to ameliorate human as well as economic 
costs. We also encourage the Senate Appropriations Agriculture 
Subcommittee to support and fund U.S. international food assistance 
programs.

                         CONCLUSION OF HEARING

    Senator Kohl. Thank you very much, Senator Bennett and we 
want to thank Dr. Keenum, Mr. Kunder and all of our witnesses 
who've come here some from long distances to make your 
statements, answer questions and offer us your wisdom and your 
experience.
    We plan to take the information that you've presented us 
today and use it as we craft the fiscal year 2008 bill and 
again, thank you so much for your contributions. This hearing 
is recessed.
    Dr. Keenum. Thank you, Mr. Chairman.
    [Whereupon, at noon, Thursday, March 15, the hearing was 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
